<html>
<title> - ASSESSING COMMERCIAL SPACE CAPABILITIES</title>
<body><pre>[Senate Hearing 111-998]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-998
 
                ASSESSING COMMERCIAL SPACE CAPABILITIES 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

66-983 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       DAVID VITTER, Louisiana, Ranking
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
MARK WARNER, Virginia



























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 18, 2010...................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Hutchison...................................    44
    Prepared statement...........................................    45

                               Witnesses

Thomas P. Stafford, Lt. General, USAF (Ret.), Former NASA 
  Astronaut......................................................     4
    Prepared statement...........................................     8
Bryan O'Connor, Chief, Office of Safety and Mission Assurance, 
  National Aeronautics and Space Administration..................    12
    Prepared statement...........................................    14
Dr. George C. Nield, Associate Administrator, Office of 
  Commercial Space Transportation, Federal Aviation 
  Administration.................................................    16
    Prepared statement...........................................    17
Malcolm L. Peterson, Former NASA Comptroller.....................    19
    Prepared statement...........................................    21
Michael C. Gass, President and Chief Executive Officer, United 
  Launch Alliance, LLC...........................................    26
    Prepared statement...........................................    29
Frank L. Culbertson, Jr., (Captain, USN, Ret.), Senior Vice 
  President and Deputy General Manager, Orbital Sciences 
  Corporation, Advanced Programs Group...........................    30
    Prepared statement...........................................    34
Gwynne Shotwell, President, SpaceX...............................    36
    Prepared statement...........................................    38

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    59
Hon. David Vitter, U.S. Senator from Louisiana, prepared 
  statement......................................................    59


                         ASSESSING COMMERCIAL 
                           SPACE CAPABILITIES

                              ----------                              


                        THURSDAY, MARCH 18, 2010

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:48 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon. The hearing will come to 
order.
    It should be quite obvious to us by now that the NASA 
budget, rolled out on February 1, in the President's request, 
was, to use some NASA words--in an ``off-nominal fashion.'' I 
can tell you for a fact that the perception is that the 
President has gutted the human spaceflight program. But, that, 
in fact, is a perception, not a fact.
    I know the President, and I know him to be a true believer 
when it comes to this Nation's spaceflight program, especially 
the manned program, and that is the reason the President has, 
in part, decided that he is coming to the Kennedy Space Center 
on April 15. And we will hear from the Commander in Chief 
himself when he hosts that meeting to discuss his new plan for 
NASA and for the future of human spaceflight.
    I think the Administration will focus on the goals, the 
strategies, timelines of their plan, and I think that the 
President will lay out an underscored commitment to the 
development of technology to pursue a goal that was articulated 
by the NASA Administrator here in this hearing room a couple of 
weeks ago.
    I think this conference is going to be an important step in 
response to the concerns that have been expressed by the 
American public, as well as by their representatives in 
Congress. And I expect the President to lay out his vision and 
what the goals and the timelines are for America's manned space 
program.
    Now, the question is, what are going to be the elements of 
bringing about a major R&D effort for, ultimately, a heavy-lift 
vehicle to get us out of low-Earth orbit? As the President has 
laid out--the good news of his budget has been lost in a lot of 
the misperception--NASA is a little civilian agency and he is 
recommending a $6-billion increase for NASA over 5 years. 
That's a fairly sizable increase, given these financial times, 
in which one of the main things that the U.S. Government has to 
do is tackle the budget deficit and start driving it down to 
get us back into balance.
    The other major piece of good news that has been 
overshadowed--and I never cease to be amazed, as I talk to 
people--that, in what I have just talked about--the 
perceptions--this news has been completely lost. And that is, 
in the budgeting, up until now, the International Space Station 
was going to cease to exist in 2015, which, of course, was 
absolutely ridiculous, from a budgetary planning standpoint, 
because we haven't even got it completed yet. And it's just 
about to be completed and equipped so that, with its 
designation as a National Laboratory, it can start to achieve 
some of the science, through experimentation in the zero-G 
environment, that we've all hoped for; and therefore, in the 
President's budget, he adds extra expenditures to keep the 
Space Station going until at least 2020.
    It is my hope that the President will also recognize the 
angst that is out there in the NASA family, because not only 
are we in a recession where various parts that have a major 
part of the employment of the Nation's Space Program are 
severely hurt, because of high unemployment figures, which is 
certainly the case in Florida, but the angst is out there 
because all of this dedicated team, that is the finest launch 
team in the world, is facing layoffs. And all of this is coming 
during a difficult economic time in an economic recession. And 
this is coming not as a result of these budget decisions, but 
budget decisions and safety decisions that were made years ago. 
And therefore, because these budget decisions were made over 
the last half-dozen years, the new rocket is not ready when the 
Space Shuttle is going to be shut down, and as a result, there 
is a gap without an American vehicle to launch crews to the 
International Space Station. And that has caused a great deal 
of angst, as it should, because, if you're laid off of your 
job, it's not a recession, it's a depression.
    Because the word, in the President's budget, was used, 
``cancellation,'' instead of the word ``restructuring'' of 
Constellation, it has caused a good bit of angst, 
understandably so.
    Now, what to do about it? Well, the President's policy that 
he's proposing to us, which is the subject matter of this 
hearing, is that the trips to and from the Space Station, for 
both cargo and crews, can be done cheaper and more quickly by 
letting the commercial sector compete in the free market, with 
NASA oversight on the human rating, to get crews up and back 
from the Space Station. And I know it to be the President's 
intent that, simultaneously, he wants the vigorous R&D work in 
the development of the new systems to take us beyond low-Earth 
orbit. And I think, in large part, that's what he will be 
addressing when he comes to the Space Center.
    There's one other little iteration that I would certainly 
encourage him to consider, and that is that there is a fifth 
Shuttle that can fly. It is held as the launch-on-demand, as a 
rescue Shuttle if any of the remaining four get into trouble. 
But, the risk for the fifth flight would be de minimis because 
of the increased volume in the Space Station that, should some 
kind of puncture of the orbiter occur on ascent in the fifth 
flight, they could rendezvous and dock, take safe harbor in the 
International Space Station, and then there would be time, 
through the Soyuz modules, to return that crew safely to Earth, 
if the worst did happen. But, of course, NASA has so improved--
since the destruction of Columbia, so improved its ability to 
make those flights safe. And so, I would argue to the President 
to have a fifth Shuttle flight.
    If you ask about additional flights, well, the hard reality 
sets in. It has been planned for--the shutdown of the Space 
Shuttle--for some period of time. And therefore, the external 
tanks which would drive future Shuttle flights are not 
assembled and are in disparate parts. And when I asked this 
question of Bill Gerstenmaier, ``You have parts out there for 
three additional tanks. How long would it take you to get 
that?'' and he says, ``By the time you recall the workforce and 
you get the parts where they can be assembled and you can do 
all the checks and you can get additional parts that you need 
that you don't have,'' he said, ``it is 2 to 2\1/2\ years down 
the road before you could fly.'' And as a practical matter, 
that doesn't solve our problem, to wait around another 2, 2\1/
2\ years, when, in fact, the Space Shuttle is scheduled to be 
shut down after the fourth flight. I'm hoping the fifth flight 
will fly.
    And so, we turn to you all. We turn to the commercial 
people, and that's what we want to explore here today.
    COTS is being executed in two phases, the first period of 
private industry development and demonstration of the various 
space transportation capabilities to and from Earth orbit. This 
phase, which has already seen a significant investment on the 
part of NASA, will be funded, according to the President's 
request, at $312 million in the Fiscal Year 2011 budget to 
expedite the pace of the development. And the second phase is 
competitive procurement of orbital transportation services to 
supply the ISS. And this phase will be funded through the Space 
Operations Mission Directorate, under the ISS Cargo Crew 
Services Line, beginning in earnest in Fiscal Year 2011.
    Now, on commercial crew to the ISS, the effort was 
initiated using the 2009 Recovery Act funds. That's otherwise 
known as the ``stimulus bill.'' And that enables future 
commercial crew launches to the ISS. Space Act agreements were 
awarded to five companies in February of this year to 
demonstrate the various technologies and capabilities necessary 
to reduce the risk of flying crew on commercial vehicles, with 
completion milestones in November and December of this year.
    And then, the follow-on commercial crew program, under the 
President's recommendation, is $6 billion over the next 5 years 
to support the development of commercial crew providers, then 
to whom NASA would turn to competitively award transportation 
service contracts that are similar to the cargo resupply 
services contracts. And this program is going to be open to a 
broad range of commercial proposals, including the human rating 
of existing launch vehicles, the development of spacecraft for 
delivering crew to the ISS, which can be launched on multiple 
launch vehicles, and the development of a new, high-reliability 
rocket system or systems.
    And so, what we're going to do today with all of you 
experts is, we want to take a look at these plans and see how 
this fits into the broader goals and visions for NASA, a vision 
that has been stated by the NASA Administrator, ultimately, to 
go to Mars. And we'll see what the President says.
    Now, what we'd like to glean from you all is also better 
understanding of how that $6 billion for man-rating the systems 
is going to be spent. And we want to explore the safety and 
regulatory aspects of the new plan. And obviously there can be 
no compromises on safety. I will put into the record a 
statement that the Aerospace Safety Advisory Panel has stated 
on exactly that.
    [The information referred to follows:]

    ``It is crucial that NASA focus on establishing the certification 
requirements; a certification process for orbital transportation 
vehicles; and a process for validating compliance. The performance and 
safety requirements must be stated promptly and clearly to enable NASA 
and non-NASA entities to proceed in the most productive and effective 
manner possible.''

    Senator Nelson. And so, it's going to be important that 
NASA work with the industry to complete a coordinated human-
rating draft by the end of this year--by the end of this Fiscal 
Year, which ends September 30.
    And contracting commercial services is another area of 
interest which is going to be critical here. How will funding 
be allocated to this effort during the R&D phases and then 
during the operation phases? And how will investments be 
divided between government and private sectors as the 
capabilities move forward? And how do we ensure these 
commercial entities remain viable once they have taken 
responsibility for these extremely important missions?
    And so, we're also going to hear from some of the companies 
today who are competing in this effort, to better understand 
your capabilities and timelines and challenges.
    And so, instead of introducing all of you at once, I'm just 
going to go right down the line, and I will introduce each one 
of you.
    Your written record is inserted in the record and made an 
official part of the transcript.
    What I'd like you to do is be mindful that we have seven up 
here. And I've already taken too much time, but I wanted to set 
the table. If I can hear from you all, each, about 5 minutes, 
and then we'll get into a lengthy set of questions. I'm in no 
hurry to leave this afternoon.
    Our first is Lieutenant General Tom Stafford, United State 
Air Force, Retired, the acclaimed astronaut who flew down close 
to the surface of the Moon, who flew that mission that, in the 
midst of the Cold War, brought about a little bit of thaw, as a 
Russian--then Soviet--spacecraft rendezvoused and docked with 
an American spacecraft, and the crews lived together for 9 
days. And he's going to discuss the impact on astronaut safety 
in transitioning the delivery of the crew from the Space 
Shuttle and Soyuz to the future commercial spacecraft.
    General Stafford, thank you for coming.

         STATEMENT OF THOMAS P. STAFFORD, LT. GENERAL, 
               USAF (RET.), FORMER NASA ASTRONAUT

    General Stafford. Thank you, Mr. Chairman.
    It's an honor to be invited to appear before you today to 
testify on the matter of crew safety and human spaceflight.
    And in the wake of the Augustine Committee report, and now 
the 2011 budget, the issues that you outlined, Mr. Chairman, it 
is imperative that this Congress should carefully consider and 
understand all the potential ramifications and the proposed 
changes to be made to the program that NASA has pursued and 
that the Congress has approved over the 4 years of the human 
spaceflight recently.
    And before proceeding to answer the question, I'd like to 
make just a few observations concerning the Augustine Committee 
report, and then, particularly, my experience with the Gemini 
Program, which was taking an existing vehicle and modifying it 
there for human-rated standards.
    And one of the most important observations of the Augustine 
Committee was the underlying concern and the deliberations on 
the future of human spaceflight has been inadequately unfunded 
for many years now, and you've already outlined that, Mr. 
Chairman, in your discussion. And it's really inadequate in 
certain ways, what they had previously, to carry on the core 
efforts.
    The Augustine also pointed out that the heavy-lift launch 
vehicle will be required for the flexibility to visit the Moon 
and other areas.
    Now, the plan that NASA had proposed, that has been 
approved by this Congress, was a program offering a strategic 
vision for human spaceflight that was demanded by Admiral 
Gehman and the Columbia Accident Board. It is a program worthy 
of our Nation. And the Augustine Committee noted, as you 
pointed out, sir, that at least $3 billion per year must be 
added to appropriations to accomplish that mission.
    He also pointed out that Mars should be the final, ultimate 
destination for human exploration of the interplanetary system, 
but that the flexible path or to visit the Moon is also not 
mutually exclusive, and I agree completely there with that 
committee.
    The choice is plain: Either we'll provide the funding 
necessary to accomplish the worthy objectives of our Nation or 
cede the leadership. And I think everyone is--understand that, 
and you elegantly outlined that in your effort there.
    And I've talked to many of the members after my--I was the 
first presenter to the Augustine Commission, Mr. Chairman, and 
after the Committee had its findings, I've talked to the ones 
that I knew personally, told them that I agreed with about 90 
percent of their findings, but I had a--certainly, a different 
point of view in about 5 to 8 percent of their findings. And 
I'm not familiar with all aspects of the proposed 2011 budget, 
or all the aspects of NASA's response to it.
    And I certainly agree with--as you outlined, remaining 
Space Shuttle flights should be launched on schedules 
compatible with safe test checkout and launch operations.
    And then, that fifth Shuttle we have on standby-on-need 
could be launched very easily, if a small amount of funding was 
available. And that would certainly enhance the viability of 
the International Space Station, Mr. Chairman.
    Now, the--again, as the Augustine Commission had its 
findings extending--that was one of my first recommendations, 
was to extend it from 2015 to 2020. And that is in the budget, 
as I've read in a macro view.
    And to have and to use this great international laboratory 
requires this guaranteed space transportation capability as 
soon as possible after the Shuttle retirement. And the--but 
also, the Augustine Commission had the finding that that 
responsibility be removed from NASA and offered to commercial 
providers. Yet, today approximately 83 percent of every NASA 
dollar goes to commercial providers directly.
    And I'd like to differentiate the two subjects--and I think 
you've already mentioned it, Mr. Chairman--concerning the 
commercial crew delivery to the Station and commercial cargo 
delivery to the Station. And for the commercial cargo delivery, 
there first has to be the development and the demonstration of 
a safe, reliable booster to Earth orbit, which is yet to be 
demonstrated.
    And the second issue, an autonomous transfer vehicle to go 
from low-Earth orbit to the Station in a safe manner that will 
meet the ISS visiting spacecraft standards. This was recently 
completed by the European Space Agency's ATV and Japan's HTV. 
The ATV was approximately 2 years late from its target, and 
required approximately 1.3 billion Euros for development and 
delivery of that first vehicle. The HTV was over 1 year late in 
their delivery.
    With respect to the commercial crew launch delivery, I'd 
like to recall my own experience of Gemini since we modified 
existing vehicle. I've flown--I flew two Gemini missions on 
modified Titan II boosters, and as you know, two Apollo 
missions, one on a small Saturn, one on a giant Saturn. The 
period of 13 years I was at NASA, experienced the development 
of high reliability of boosters, spacecraft, and launch-abort 
systems. And then--and the pilot of Gemini VI, the world's 
first rendezvous--on that mission, the Titan II ignited and 
shut down at T=0. And we had the lift-off signals and a fire 
broke out down below. But, the extensive modifications that 
NASA and the Air Force had made to that booster made it 
possible that I'd be speaking before you today, Mr. Chairman, 
and not be in some obituary column. So, I have a significant 
interest in the safety.
    And there were several black areas of the launch trajectory 
of the Titan II/Gemini program. It was basically--the Titan/
Gemini program was a high-risk demonstration program which 
would not be acceptable today, in terms of safety.
    And I think it's important for all the commercial providers 
here today to understand that when the NASA first, you know, 
put forth the idea of flying the Gemini on the Titan, the Air 
Force strongly resisted this. The program manager and his 
production line did not want modifications going into those 
vehicles. And it escalated all the way up to the Deputy 
Administrator, Dr. Robert Seamus, talking to the Secretary of 
the Air Force, and then finally, Administrator, Mr. Jim Webb, 
and Secretary of Defense, Robert McNamara, signed off on an 
agreement. And in that, the elements for the Titan that would 
go to Gemini would be specially--had special quality assurances 
in the plant in Denver, but a complete separate program line 
was set up in the Martin Baltimore plant. And there, the 
modifications were put on it--dual redundant hydraulic systems, 
all the series of modifications, standpipes, accumulators to 
prevent POGO. And from the Aerojet company that supplied the 
engines' first and second stage had special handling of those 
for the Titan, and an escort with them all the way to install 
at the Martin plant, and stayed with the booster all the way to 
the launch at the spacecraft. So, it was very extensive, what 
we did. And we all spent hundreds of hours, both at the 
spacecraft and with the booster, in that period of time. So, it 
was not simple to have that whole effort there.
    And it's interesting to note, that after the Air Force-NASA 
experience on that, the Air Force modified their boosters with 
a lot of our programs that we had in there.
    And from there--the safe, reliable delivery of government 
crews to the ISS involves the human-rating of the launch 
vehicle, the spacecraft, and the launch-abort system. And the 
successful integration of all three elements has to be there. 
The safety goal for Apollo, sir, which I flew, had 0.9999--four 
nines. Now, I know the Astronaut Office has put out a paper 
that has three nines, and when you go beyond the third nine, it 
may be insignificant, but this is a desirable number to meet, 
and it has to be demonstrated. And the process begins with the 
design, the construction, all the way through. And that's just 
not given on a piece of paper, it has to be demonstrated and 
checked on.
    Unfortunately, the Augustine Committee report gave only a 
brief mention of crew safety for launch operations and reentry. 
And regrettably, there were no indepth discussions of the vital 
issue of this crew safety, safety launch, and orbital return of 
the crews. It was just taken as safety is a given. And I've 
mentioned that directly to Norm, so he knows about it.
    And it may be the complexity of developing a new government 
crew space transportation capability and the difficulty of 
conducting spaceflight operations and safety, reliable--is not 
fully appreciated by those--the present systems being developed 
by NASA and the early adaptation of presently nonexisting 
commercial government crew vehicle alternatives. There's some--
seems to be some belief that if NASA would just step aside, 
then private alternatives would rapidly emerge to produce a 
safe, reliable, dependable government crew delivery space 
transportation.
    And human spaceflight is the most technically challenging 
demand of our own time, Mr. Chairman. It is far more demanding 
than military fighter aircraft, which takes thousands of hours 
of test flight--the operational test and evaluation before it's 
put in service. And the same way with commercial airline before 
they're put into commercial service.
    And we've learned a lot over those years, but the--we know 
that there has to be this demonstrated reliability. And it's 
interesting to note, I--the Augustine report in great detail, 
and it said if less constrained budgets were available, they 
could fly as early as 2016. But, again, looking at the present 
budget, it was a slight increase, but it wasn't to the increase 
that Mr. Augustine had in his findings.
    It did go on to say, with an item I agree, ``The Committee 
recognizes the development of commercial services to transport 
crew come with significant program risk.'' And then it goes 
into their, ``One risk is a--can detract from the delivery of 
the cargo.'' But the second one is, ``If the commercial 
community fails to deliver this crew vehicle in mid-program, 
then it would revert back to NASA.'' And the big issue there, 
for NASA and the whole country, is, How could it revert in a 
meaningful way to NASA, when all their support contractors are 
gone, and furthermore, a lot of the civil servants have left? 
And it went on to say, ``There are simply too many risks at the 
present time to have a viable fallback option of not having 
risk mitigation.'' So, the question is, How do we have risk 
mitigation when, as far as we know, the present program is 
pretty much eliminated?
    And there's one minor thing, too, at the end. It said that 
they need to be multiple providers for this. And this would be 
similar, sir, like the--we have the F-22, which I'm sure that 
every member knows about--the most capable aircraft in the 
world--air-to-air combat--and the most expensive--which was 
recently terminated. That started as the YF-22, and the YF-23 
by the Air Force. And developers chose the 22 for development 
tests, evaluation--operational test and evaluation in the 
service.
    Reading the report--and I talked to the person who wrote 
this chapter--he said, ``Yes, you need both.'' So, that would 
be like taking the F-22 and the F-23, taking them all the way. 
So, that would take many tens of billions. So, on that one, I 
disagree, Mr. Chairman.
    The--so, there are many aspects to this, and there are a 
lot of things that has to go forward, and I do not believe it 
can happen in any short period of time.
    Thank you.
    [The prepared statement of General Stafford follows:]

        Prepared Statement of Thomas P. Stafford, Lt. General, 
                   USAF (Ret.), Former NASA Astronaut
    Chairman Nelson, Ranking Member Vitter, and members of the 
Subcommittee, I am honored to be invited to appear before you today to 
testify on the matter of crew safety in human spaceflight. In the wake 
of the Augustine Committee report and now the President's 2011 Budget, 
it is imperative that this Congress should carefully consider and 
understand all of the potential ramifications of the proposed changes 
to be made to the programs that NASA has pursued and that the Congress 
has approved for more than 4 years for human spaceflight.
    Before proceeding to answer your questions, I would like to make a 
few observations concerning the Augustine Committee report.
    The most important observation of that Committee, and the 
underlying concern in all deliberations on the future of U.S. Human 
Spaceflight, is that it has been inadequately funded for many years 
now. The budget projection for NASA in the next decade and beyond is 
inadequate to accomplish the core objectives with which NASA has been 
charged. The funding is inadequate to build a timely replacement for 
the Space Shuttle, to transport our astronauts and other international 
partner nations' crews to and from the International Space Station to 
the Earth. The Augustine Committee pointed out that a heavy lift launch 
vehicle would be required to have flexibility to visit the moon, near-
Earth asteroids, and to develop the technology and systems required for 
the first human voyages to Mars.
    The plan that NASA had proposed and that has been approved by the 
Congress is a program offering the strategic vision for human 
spaceflight that was demanded by Adm. Gehman and the Columbia Accident 
Investigation Board. It is a program worthy of our Nation. The 
Augustine Committee notes that at least three billion dollars per year 
must be added to NASA's appropriation to accomplish the mission. Even 
more importantly, the Committee notes that there is no other worthwhile 
program of human spaceflight which could be accomplished for the amount 
of money presently planned for NASA. Also of interest, is that the 
Augustine Committee stated that Mars is the ultimate destination for 
human exploration to the inner Solar System, but not the best first 
destination. Visiting the ``Moon First'' and following the ``Flexible 
Path'' are both viable exploration strategies and the two are not 
necessarily mutually exclusive before traveling to Mars. I certainly 
agree with these findings of the Committee.
    The choice is now plain: either we will provide the funding 
necessary to accomplish worthy objectives in space, or this Nation will 
cede its leadership on the space frontier to others. I wish to add my 
voice to those who say that this leadership, the result of five decades 
of effort purchased at the cost of nearly a trillion of today's dollars 
and many lives, some of them given by close friends of mine, must not 
be allowed simply to drift away. As a nation, as a people, we must be 
better than that.
    I want to acknowledge the work performed by the Augustine Committee 
to cover these broad based subjects in such a relatively short period 
of time. After extensive examination of the Committee's report, I 
strongly agree with the majority of their findings and recommendations. 
However, on some of the Committee's findings, I have a different 
opinion.
    I am not familiar with all of the aspects of the President's 
proposed 2011 budget nor all of the aspects of NASA's response. I agree 
with the Committee's recommendation that the remaining Space Shuttle 
flights should be launched on a schedule that is compatible with the 
normal procedures used for safe check out test and launch operations, 
which may extend the flights into 2011. We presently have a Shuttle at 
KSC on standby to launch on short notice, as was determined by the CA 
IB. If funding were available this Shuttle could easily provide cargo 
delivery that would certainly enhance the viability of the ISS six-
person crew capability.
    The Committee wisely recommends the extension of the International 
Space Station past 2015 to at least the year 2020. However, the ISS 
will never be fully and effectively utilized unless researchers of all 
of the ISS partner nations have the confidence that it will be 
supported and sustained as long as it is operationally viable and 
technically useful.
    To have and to use this great international laboratory requires a 
guaranteed space transportation capability to be available as soon as 
possible after Space Shuttle retirement. The Committee recommends that 
this responsibility be removed from NASA and offered to commercial 
providers. Today, approximately 88-89 percent of NASA budget flows on 
to commercial entities.
    I would like to differentiate the two subjects, Potential 
Commercial Cargo delivery to the ISS and Potential Commercial 
Government Crew delivery to the ISS. NASA has incentivized and selected 
two contractors to provide commercial cargo delivery to the ISS. For 
commercial cargo delivery, the first issue is the development of a 
reliable booster to low earth orbit under the COTS program, which is 
yet to be demonstrated. The second issue is to develop an autonomous 
transfer vehicle to transport cargo from the booster in low-Earth orbit 
(LEO) to the ISS in a safe manner that would meet the stated ISS 
visiting spacecraft requirements that were complied with by the 
European Space Agency's ATV and Japan's HTV. The development of this 
type of a transfer vehicle is in itself certainly is a major challenge. 
The European Space Agency recently delivered their first ATV payload 
several years later than their initial target delivery date. Japan 
delivered their HTV some 2 years later than their initial target date. 
Both government entities used considerable resources to develop their 
individual transfer vehicles. I certainly wish the two United States 
entities success in meeting their NASA milestones for cargo delivery 
since the ISS is dependent upon a continued supply of cargo deliveries 
by the partners.
    With respect to commercial crew launch delivery to the ISS, I would 
like to recall my own experience. I have flown two Gemini missions on a 
modified Titan II, ICBM, booster and two Apollo missions, one on the 
Saturn IB and one on the giant Saturn V. Over the period of thirteen 
years at NASA, I experienced and participated in the development of 
high reliability boosters, spacecraft, and launch abort systems. I was 
a back-up pilot for the first manned Gemini spacecraft and spent many 
months in the factory and countless hours of testing in the spacecraft 
as it was being built and tested. I was then pilot of Gemini VI, the 
world's first rendezvous mission. On that mission, the Titan II first 
stage engines ignited and then shutdown at T=0. Wally Schira and I had 
the lift off signals and a fire broke out below the base of the 
booster. The emergency detection system and modifications that had been 
installed in the Titan II helped us to resolve the two critical 
failures that we experienced in that extremely short period of time. 
There were several black areas of the launch trajectory of the Titan II 
Gemini. They would not be acceptable today. The Titan Gemini program 
was a high-risk demonstration program.
    I was the back-up commander for the second Block I Apollo flight 
and had my crew performing a similar test, in the sister spacecraft, at 
the same time that the Apollo I accident occurred and the crew died in 
the spacecraft fire on the launch pad. I was then back-up commander of 
the first Block II Apollo spacecraft, Apollo V II, and again spent 
considerable time in the command module which was being built and 
tested. There were also numerous NASA engineers, inspectors and support 
technicians at the factory to facilitate this effort. This support 
effort was similar to the Gemini program, where numerous NASA 
engineers, inspectors and support technicians participated in the 
manufacturing and test at the factory. I was then the Commander of 
Apollo X, the first flight of the Lunar module to the Moon. Again, I 
spent an inordinate amount of time in performing test and check-out in 
the command module and the lunar module.
    My fourth mission, I was commander of Apollo for the Apollo-Soyuz 
Test Program. Again, I spent considerable time for the test and check 
out of the Apollo spacecraft and a brief time in the Soyuz spacecraft. 
These flights, both as a prime and as a backup crew member were 
accompanied with hundreds of hours of training for each mission in 
different types of spacecraft simulators and mockups where numerous 
emergency and normal situations were simulated and resolved.
    Therefore, safe reliable delivery of a government crew to the ISS 
involves the human rating of the launch vehicle, the spacecraft, and 
the launch abort system, and the successful integration of all three 
elements. The safety goal for the Apollo Saturn was from launch to LEO 
and safe return to the Earth 0.9999. The process of requirements, 
design, and construction all begin with the NASA safety and mission 
assurance requirements. There also has to be a process where there is 
not an excessive creep in requirements that would result in cost 
increases and launch schedule delays of the vehicles. Unfortunately, 
the Augustine Committee report only gave just a very brief mention of 
crew safety for launch, orbital, and recovery operations. Regrettably, 
there were no in-depth discussions of this vital issue of safe launch 
to orbit and return to earth of government crews.
    It may be that the complexity of developing a new government crew 
space transportation capability, and the difficulty of conducting 
spaceflight operations safely and reliably, it is not fully appreciated 
by those who are recommending the cancellation of the present system 
being developed by NASA, and the early adaptation of the presently non-
existent commercial government crew delivery alternatives. There seems 
to be some belief that if NASA would ``step aside'', private 
alternatives would rapidly emerge to offer inexpensive, safe, reliable, 
dependable government crew delivery space transportation at an earlier 
date.
    Human spaceflight is the most technically challenging enterprise of 
our time. No other activity is so rigorously demanding across such a 
wide range of disciplines, while at the same time holding out such 
harsh consequences for minor performance shortfalls. Aerodynamics, 
aerospace medicine, combustion, cryogenics, guidance, and navigation, 
human factors, manufacturing technology, materials science, structural 
design and analysis--these disciplines and many more are pushed to 
their current limits to make it possible and just barely possible at 
that, to fly in space. Flight in space is very, very hard to achieve.
    We've learned a lot about human spaceflight in the last five 
decades, but not yet nearly enough to make it ``routine'' in any 
meaningful sense of the word. As Adm. Gehman and the CA IB outlined, 
these flights in the past have been developmental flights and the 
relatively small number in the future will be the same. Thus far, it 
has been a government enterprise with only three nations yet to have 
accomplished it. Of the three, it is important to note that only the 
United States, where NASA set requirements had oversight with the 
design and development of vehicles, and commercial entities built all 
of the hardware and software. In the other two countries, it is 
government owned entities that built all of the hardware and software 
for their capabilities. Development of new systems is very costly, 
operational risks are extremely high, and commercial profitable 
activities are elusive. It may not always be this way, but it is that 
way at present.
    Apart from questions of technical and operational complexity and 
risk, there are business issues to be considered if the U.S. is to rely 
upon commercial providers for government crew access to space. It is 
not that industry is incapable of building space systems. Far from it. 
It is American industry which actually constructs all of our Nation's 
space systems today, and carries out most of the day-to-day tasks to 
implement flight operations, subject to the government supervision and 
control which is required in managing the expenditure of public funds.
    So the question is not whether industry can eventually develop 
government crew delivery systems and procedures to fly in low Earth 
orbit. It can. The relevant questions in connection with doing so 
commercially are much broader than that of the relatively simple matter 
of whether it is possible. Let us consider a few of those questions.
    Absent significant government backing, will industry provide the 
sustained investment necessary to carry out the multi-year development 
of new commercial government crew delivery systems to LEO? Will 
industry undertake to develop such products with only one presently 
known customer, the U.S. Government? What happens if, midway through 
the effort, stockholders or boards of directors conclude that such 
activities are ultimately not in the best interests of the corporation?
    What happens if, during development or flight operations, an 
accident occurs with collateral damages exceeding the net worth of the 
company which is the responsible party? A key lesson from the 
development of human spaceflight is that safety is expensive, and the 
failure to attain it is even more expensive. Apollo 1, Challenger, and 
Columbia have shown that spaceflight accidents generate billions of 
dollars in direct and collateral liabilities. Who will bear this risk 
in ``commercial'' space operations? If the company, how much insurance 
will be required, where will it be obtained, and at what cost? If 
government indemnification is expected, upon what legal basis will it 
be granted, and if the government is bearing the risk, in what sense 
will the operation then be ``commercial''?
    When commercial government crew delivery space transportation does 
come about, other questions will arise. Will there be competition in 
this new sector, or will there be a monopoly supplier? If NASA is to 
contract with the first, or only, commercial government crew space 
transportation supplier, and if there is no price ceiling established 
by a government alternative, how do we ensure a fair price for the 
taxpayer in a market environment in which the government is the only 
customer for the products of a single provider? And how is a space 
operation ``commercial'' if the government is both regulatory agency 
and sole customer?
    Leaving aside technical, operation, and business concerns, there is 
the matter of the schedule by which these new commercial systems are 
expected to come into being. The Augustine Committee has been 
particularly pointed in its clams that, with suitable government 
backing, such systems can be made before the comparable Constellation 
systems, Ares 1 and Orion, could be ready. Page 71 of their report 
offers such a claim. It further goes on to say Committee recognizes 
that the development of commercial services to transport crews come 
with significant problematic risks. Among these are that the 
development of this capability will distract current potential 
providers from the near term goal of the successfully developing 
commercial cargo capability. Second, the commercial community may fail 
to deliver a true capability in mid-program and the program would 
revert to NASA ``Now, how could it revert to NASA when the team has 
been dismissed and laid off with this exercise?'' It would be a 
disaster for our country's Human Space Flight program both technically 
and politically.
    Are such claims optimistic? Any launch system and crew vehicle that 
can transport a half-dozen people to and from the ISS, and loiter on-
orbit for a six-month crew rotation period while serving as an 
emergency crew return vehicle, is necessarily on the same order of 
complexity as that of the old Saturn 1 and the Apollo systems. The 
Saturn 1 conducted its first test flight, with a dummy upper stage, in 
October 1961, and finally carried a crew for the first time in October 
1968. The Apollo VII spacecraft which carried that crew, of which I 
served as back-up Commander, began its own development in 1962. Thus, 
the Earth-orbital segment of the Apollo system architecture required a 
half-dozen years and more to complete. These developments were carried 
out by highly experienced teams with virtually unlimited development 
funds in the cause of a great national priority.
    If, in the fashion of airline travel, NASA is buying a ride rather 
than a spacecraft, then how, by whom, and to what standards will the 
company's equipment and operation be certified? How is NASA to 
determine that the system is truly ready to fly? Does the government 
merely accept the claims of a self-interested provider, on the basis of 
possibly very limited flight experience by company pilots? We certainly 
do not do that for military aircraft, and even less so is this the case 
for civilian transport aircraft. Extensive development and hundreds or 
even thousands of hours of flight testing followed by operational test 
and evaluation by the government is required before a new military 
aircraft is released into operational service; I have participated in 
and managed this type of testing. Similarly, new civilian aircraft are 
subject to extensive testing involving certification of systems and 
subsystem, and hundreds of flights to exact certification standards 
before they are allowed to be put in passenger service. Will we accept 
less for new, ``commercial'' space systems which carry government 
astronauts, or those of our international partners? In my opinion, the 
Congress should certainly not accept less.
    Yet, today, we do not even know what standards should exist for the 
certification of commercial spacecraft to carry government crew members 
into orbit. What entity other than NASA can establish and verify 
appropriate standards for human spaceflight? I will tell you that from 
my perspective and from the history that I have lived, these standards, 
like airworthiness standards, are written in other people's blood. Some 
of that blood was shed by friends of mine. We don't know enough, yet, 
about human spaceflight to relax the hard-learned standards by which we 
do it. And we certainly do not yet know enough to make the assumption 
that new and untried teams can accomplish it on a schedule that is 
better than was achieved during Apollo.
    This takes me to another point. Some of you may recall that, a few 
years back, I chaired the Task Force on International Space Station 
Operational Readiness. This task force was charged with making an 
independent assessment of our readiness to put crew on the ISS, and to 
sustain it with the transportation systems, Russian and American, which 
were necessary for cargo delivery and crew rotation. We did not take 
this matter lightly. The ISS was new, and much smaller. We did not then 
have the years of experience we have since accumulated in building the 
ISS and flying on it. Our then-recent long-duration spaceflight 
experience had mostly been accumulated during the Shuttle-Mir program, 
and Russian experience in resupplying the Mir and the earlier Salyut 
space stations was not unblemished. Numerous docking failures had 
occurred over the lifetimes of these programs, resulting not only in 
cargo which went undelivered but also, in one case, the collision of an 
unmanned Progress resupply vehicle with the Mir. And in another 
instance there had been a fire on Mir itself and the first crew to 
visit their first very small space station Salyut died after performing 
the D orbit maneuver to reenter the atmosphere.
    These incidents and accidents gave us pause. Not because we doubted 
the capability of the team; the Shuttle had been flying for over 
fifteen years by that time, and the Russians had accumulated decades of 
experience in long-duration spaceflight. I've flown with them; I know 
how capable they are. No, our concerns were heightened by our awareness 
of just how careful one has to be in this most demanding of 
enterprises. We cannot afford to relax that vigilance today as we go 
forward into a new era of ISS utilization, and as we prepare once again 
to hopefully voyage outward from Earth, first to the moon or the 
asteroids and then beyond. There is a place in these plans for the 
contributions of commercial government crew space transportation, but 
not yet demonstrated, and not to the exclusion of NASA's own safety and 
mission requirements.
    I have asked many questions in this testimony, questions which I 
believe must be answered if commercial government crew human 
spaceflight is to become viable. I believe that these questions and 
others yet to come can and will be answered at some date. However, 
America's continued leadership in space should not depend upon the 
nature and timing of those answers. When commercial entities have 
demonstrated that they can provide dependable reliable transportation 
to LEO, the U.S. government crews as well as partner nation crews, the 
government should buy it. But until that time, there should be an 
assured government capability to accomplish the task.
    Thank you.

    Senator Nelson. Thank you, General Stafford.
    Our next witness is Mr. Brian O'Connor. He is Chief of 
Safety and Mission Assurance at NASA. He is an astronaut, a 
Marine colonel, will address NASA's human safety rating 
requirements for commercial spaceflight.
    Colonel O'Connor?

   STATEMENT OF BRYAN O'CONNOR, CHIEF, OFFICE OF SAFETY AND 
       MISSION ASSURANCE, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Mr. O'Connor. Thank you, Mr. Chairman.
    Senator Nelson. By the way, I was liberal in my allowing 
General Stafford the use of time. I'm going to be a little more 
observant.
    Mr. O'Connor. Yes, sir.
    Senator Nelson. He's earned the right to be heard.
    [Laughter.]
    General Stafford. Thank you, Mr. Chairman.
    Mr. O'Connor. Well, he's about four ranks higher than I am, 
so I'll take 4 minutes off mine.
    [Laughter.]
    Mr. O'Connor. Thank you for the opportunity to appear here 
today to discuss how NASA will ensure the safety of its human 
spaceflight missions for transport of NASA and NASA-sponsored 
international partner crewmembers to the International Space 
Station.
    The President's budget request cancels the Constellation 
Program and funds the agency to contract with industry to 
provide astronaut transportation to the ISS as soon as 
possible, reducing the risk of relying solely on foreign crew 
transports. NASA will take on this new challenge with 
appropriate respect for our hard-learned safety lessons of the 
past.
    As you know, the launch or recovery of a spacecraft is a 
very dynamic event involving tremendous amounts of potential 
kinetic energy. Furthermore, operations of any system in the 
proximity of the ISS pose their own safety integration 
challenges for both vehicles and the crew. Therefore, through 
its program management, its systems integration, human-rating 
design, technical checks and balance, and proactive safety 
culture, NASA makes every effort to address flightcrew safety 
in a transparent and disciplined way.
    As we've been reminded by our human spaceflight accidents 
and close calls over the years--X-15, Apollo, Space Shuttle--
systems integration should not be underestimated. Also, our 
spaceflight vehicles traditionally have been certified by NASA 
to carry crews in an engineering flight test environment. It's 
important to note that the job of validating the right set of 
requirements for a new crew--crewed flight system is not a 
simple cookie-cutter or checklist task, nor is it expected to 
be a one-time task. We still see, to this day, new safety 
issues on the Space Shuttle, after 130 flights. Therefore, 
we're always looking for ways to improve our risk posture by 
continuously questioning our assumptions, encouraging 
dissenting opinions, refining our models, and providing 
appropriate oversight and/or insight to the work of our 
contractors.
    The first step on the road to confidence for the next ISS 
crew transport capability is establishing an acquisition 
approach for our government industry team. To support that 
approach, we are developing performance requirements, including 
safety-risk metrics and a generic set of NASA human-rating 
technical requirements that would applicable to any ISS-bound 
crew transport system. We expect to issue a request for 
information to industry soon to help us, and we're working 
closely with the FAA, because of its obvious interest in future 
regulatory activities for commercial human spaceflight.
    To that end, the decision to transition our ISS crew 
members from Soyuz to any new vehicle will be based on 
confidence. This confidence will be based on a combination of 
NASA technical insight into the design, appropriate levels of 
management oversight of the development and operation, along 
with demonstrated capability and reliability of the components, 
the subsystems, and the integrated flight and ground system.
    In closing, I'd like to reiterate that safety is, and 
always will be, NASA's first core value and that everyone in 
the agency is dedicated to ensuring that our astronauts are 
trained and equipped to safely conduct our spaceflight 
missions.
    Chairman Nelson, I'd be happy to respond to any questions 
you have, or any other members, as they come.
    Thank you.
    [The prepared statement of Mr. O'Connor follows:]

   Prepared Statement of Bryan O'Connor, Chief, Office of Safety and 
    Mission Assurance, National Aeronautics and Space Administration
    Chairman Nelson and members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss how NASA will ensure 
the safety of its human spaceflight missions for transport of NASA and 
NASA-sponsored International Partner crewmembers to the International 
Space Station.
The President's FY 2011 Budget Request for NASA
    The President's budget request cancels the NASA Constellation 
Program and funds the Agency to contract with industry to provide 
astronaut transportation to the International Space Station (ISS) as 
soon as possible, reducing the risk of relying solely on foreign crew 
transports for years to come.
    NASA will take on this new challenge with appropriate respect for 
hard-learned safety lessons of the past. NASA will use a disciplined 
acquisition processes to support the development, testing and 
demonstration of multiple commercial crew systems to the ISS that 
safely and dependably perform the same functions as the Russian Soyuz 
system.
The Role of OSMA in Ensuring Human Spaceflight Safety
    The NASA Office of Safety and Mission Assurance (OSMA) was 
established in the wake of the Challenger accident, and provides policy 
direction, functional oversight, and assessment for all Agency safety, 
reliability, maintainability, and quality engineering and assurance 
activities, while serving as a principal advisory resource for the 
Administrator and other senior officials on matters pertaining to human 
spaceflight safety and mission success. As Chief of the OSMA, I report 
directly to the NASA Administrator. OSMA supports the activities of--
but is organizationally separate from--the human spaceflight Mission 
Directorates and the Office of the Chief Engineer, thus providing the 
Administrator an independent view of the safety and effectiveness of 
human spaceflight designs, flight test and mission operations in 
addition to all other mission roles of the Agency.
    Specifically, OSMA:

  <bullet> Develops strategies, policies, technical requirements, 
        standards, and guidelines for system safety, reliability, 
        maintainability, and quality engineering and assurance;

  <bullet> Establishes the applicable set of Safety and Mission 
        Assurance (SMA) requirements for all human spaceflight 
        programs, and, through delegated technical authority, formally 
        approves or disapproves waivers, deviations and/or exceptions 
        to same;

  <bullet> Verifies the effectiveness of safety and mission assurance 
        requirements, activities, and processes, and updates, cancels 
        or changes them as time, technology and/or circumstances 
        dictate;

  <bullet> Advises NASA leadership on significant safety and mission 
        assurance issues, including investigation of human spaceflight-
        related mishaps and close calls, and provides guidance for 
        corrective actions stemming from those investigations as well 
        as corrective actions related to ground and flight test 
        anomalies;

  <bullet> Performs broad-reaching independent assessments of human 
        spaceflight-related activities, including formal Independent 
        Validation and Verification of flight and ground software 
        critical to flight crew safety;

  <bullet> Oversees and assesses the technical excellence of safety and 
        mission assurance tools, techniques, and practices throughout 
        the human spaceflight program life cycle;

  <bullet> Provides knowledge management and training in safety and 
        mission assurance disciplines to the assigned work force; and,

  <bullet> Assures that adequate levels of both programmatic and Center 
        institutional resources are applied to safety and mission 
        assurance functions.
Crew Safety and Human Spaceflight
    The launch and recovery of a spacecraft is a very dynamic event 
involving tremendous amounts of potential and kinetic energy. Such 
events expose flight crews to significant inherent risks in the form of 
a variety of potentially catastrophic hazards and survivability 
challenges. Further, operations of any system in the proximity of the 
ISS pose their own safety integration challenges for both vehicle(s) 
and crew. Therefore, through its program management, systems 
integration and human rating design, and technical checks and balance, 
NASA makes every effort to address flight crew safety in a transparent 
and disciplined way. The process analyzes and manages failure modes and 
effects, and strives to eliminate hazards that could harm the crew. 
Where hazard elimination is not practical, the design and operational 
concept attempts to control or at least mitigate hazards, sometimes 
with crew procedures, other times with extra controls on the 
manufacturing, test or inspection of components to minimize human error 
or chance of hardware/software failure. In addition, the human-rated 
system provides for crew survival in the presence of catastrophic 
events through abort or escape. As we have been reminded by all of our 
major human spaceflight accidents and close calls in the past, system 
integration, including the interrelated effects of the various flight 
and ground elements for accident initiation as well as hazard 
mitigation should not be underestimated. Spaceflight vehicles 
traditionally have been certified by NASA to carry crews in an 
engineering flight-test environment.
    It is important to note that the job of validating the right set of 
requirements for a new crewed flight system is not a simple cookie-
cutter or checklist task, nor is it expected to be a one-time task. 
Compliance with requirements is only part of what makes us comfortable 
in human spaceflight. Much of what we do in development and operations 
is proactive and reactive risk management. The risk of human 
spaceflight is inherently high, and we know from the past that we are 
never as smart about this business as we think we are. We still see new 
safety issues on the Space Shuttle after 130 flights. Therefore, we are 
always looking for ways to improve our risk posture by continuously 
questioning our assumptions, refining our models, checking our work, 
and providing appropriate oversight and/or insight to the work of our 
contractors.
    Further, our history teaches us that new risks will come up during 
the lifecycle of any human spaceflight system. For example, any human 
system will require extensive iterative work in development and 
optimization of abort and escape capability. In the future human 
systems must provide the crew with a reasonable chance at a survivable 
outcome even when the situation is catastrophic to the flight system. 
In any number of human spaceflight systems developments in the past, 
limitations in the abort/escape systems were not known until well into 
the design, at which time other hazard mitigators such as added 
robustness or system redundancy, or extra limits to the flight envelope 
were laid on late in the design cycle. Late safety risks must be 
treated with the same discipline and respect as any early design 
challenges; and where safety risks can be reasonably tolerated, their 
acceptability must be agreed to by all four elements of NASA's 
governance structure: the relevant technical authority, the cognizant 
system safety engineer, the flight crew, and finally the program 
manager. We also know from organizational cultural lapses in the past 
that we must encourage a reliable, recognized appeal system to hear and 
deal with any credible voice of dissent concerning crew safety.
    In the end, the decision to transition our ISS crewmembers from 
Soyuz to any new vehicle will be based on NASA leadership attaining the 
confidence that the new system will meet or exceed its standards and 
requirements, including the risk level assigned by the agency for the 
ISS transport mission. This confidence will be based on the combination 
of NASA technical insight into the design, appropriate levels of 
management oversight of the development and operation, verification of 
performance and technical requirements along with demonstrated 
capability and reliability of components, subsystems (including escape 
and abort subsystems) and the integrated flight/ground system.
Safety and Future ISS Transportation Systems
    The first step on the road to confidence for the next ISS crew 
transport capability is establishing an acquisition approach and 
operations model for our government/industry team. To support that 
approach, we are developing performance requirements, including safety 
risk metrics, and a generic set of NASA human rating technical 
requirements that would be applicable to any ISS-bound crew 
transportation system. NASA's Commercial Crew and Cargo Program Office 
and its technical authority, in coordination with the ISS program/
technical authority, has initiated an effort to determine and establish 
the requirements and standards (process, design and operational) that 
would most likely apply to industry partners when engaging in astronaut 
transport development and operations.
    As part of that effort, NASA is investing funds from the American 
Recovery and Reinvestment Act of 2009 (P.L. 111-5) to develop a subset 
of its human rating technical requirements that would most likely apply 
to the specific ISS transport mission. The technical requirements would 
be applicable to NASA developed/operated crew transportation systems as 
well as industry-developed/operated crew transportation systems for use 
by NASA. This task is being performed by a team comprised of 
representatives from NASA's human spaceflight programs, the Astronaut 
Office, and Agency technical authorities, including the OSMA. We are 
also including the Federal Aviation Administration because of its 
obvious interest in future regulatory activities for human spaceflight. 
When these documents have completed internal Agency review, NASA plans 
to issue a Request for Information to alert all interested parties of 
our intent, as well as to seek industry feedback. NASA currently 
anticipates completing this process in calendar year 2010. When 
completed, these requirements documents will provide guiding principles 
for developing, clearing for flight, and operating any spaceflight 
system before it is allowed to carry NASA crewmembers. As with any 
complex, high risk system, the ultimate design and operational 
requirements are tailored to fit the mission, the design concept, and 
the industry partner's own standards, experience and processes. This 
tailoring begins pre-award, but it continues into the early acquisition 
phases after a contract has been let.
Conclusion
    In closing, I would like to reiterate that safety is, and will 
always be, NASA's first core value, and that everyone at the Agency is 
dedicated to ensuring that our astronauts are trained and equipped to 
safely conduct NASA's spaceflight missions.
    Chairman Nelson, I would be happy to respond to any questions you 
or the other members of the Subcommittee may have.

    Senator Nelson. Thank you, Colonel.
    Dr. George Nield, the Associate Administrator for 
Commercial Space Transportation in the Federal Aviation 
Administration, and he will address the FAA's role in 
regulating the commercial spaceflight industry and the 
licensing and certification process.
    Dr. Nield?

               STATEMENT OF DR. GEORGE C. NIELD,

      ASSOCIATE ADMINISTRATOR, OFFICE OF COMMERCIAL SPACE

        TRANSPORTATION, FEDERAL AVIATION ADMINISTRATION

    Dr. Nield. Chairman Nelson, thank you for inviting me to 
participate in this hearing on commercial space transportation 
capabilities.
    I'd like to start by briefly reviewing the role that the 
Federal Aviation Administration has played in regulating 
commercial launches over the past 25 years.
    In accordance with Federal statute, the mission of the 
Office of Commercial Space Transportation is to ensure 
protection of the public, property, and the national security 
and foreign policy interests of the United States during 
commercial launch and reentry activities, and to encourage, 
facilitate, and promote commercial space transportation.
    Our top priority is safety. Some of the ways we carry out 
our safety responsibilities include developing and issuing 
regulations, granting licenses, permits and safety approvals, 
and conducting safety inspections during every licensed or 
permitted launch.
    Our safety record to date has been excellent. Since 1989, 
we have licensed the launch of 201 commercial vehicles without 
any loss of life, serious injuries, or significant property 
damage to the general public.
    In 2004, Congress expanded our regulatory role when it 
approved the Commercial Space Launch Amendments Act of 2004. In 
response to the Act, we have issued regulations governing human 
spaceflight on commercial launch vehicles, making it clear that 
individuals participating in these flights must be fully 
informed of, and accept, the significant risks involved.
    One of the key challenges we are facing right now involves 
the beginning of a new segment of the industry: suborbital 
space tourism. We are currently working with about a half-dozen 
companies that are in the process of designing, developing, and 
testing vehicles that will be capable of carrying people out to 
the edge of space. We know that not all of these companies will 
be successful. Some will experience technical difficulties, 
while others will struggle with the necessary financing. But, 
there are enough very capable and well-funded groups currently 
working on this effort that I am confident that, in the next 
few years, we will see multiple companies conducting several 
suborbital launches per week. That will mean hundreds of 
launches per year, with thousands of people having an 
opportunity to experience spaceflight firsthand.
    With that background, let me speak to the FAA's approach to 
regulating the launch of commercial vehicles carrying humans to 
orbit. Certainly, the process will not be easy. These are 
challenging matters, not easily reducible to checklists or go/
no-go criteria. But, I believe that there is enough good will, 
skill, and ability among the involved parties to produce 
appropriate government oversight and regulatory frameworks.
    To begin with, the FAA already has a solid working 
relationship with NASA. For example, it has been decided that 
all of the launches for the commercial orbital transportation 
services, or COTS program, and the cargo resupply services, or 
CRS program, will be licensed by the FAA. So, as the launch 
operators demonstrate the ability of commercial vehicles to 
deliver cargo to the International Space Station, NASA and the 
FAA will have the opportunity to demonstrate that we can 
seamlessly provide the needed government oversight for cargo 
missions well before any commercial crew missions are 
scheduled.
    NASA has built an unequaled body of experience carrying 
humans safely to and from orbit. No one has done this work 
better than NASA across nearly 50 years of human spaceflight. 
At the same time, the FAA's Office of Commercial Space 
Transportation has more than 25 years of experience in 
regulating commercial space launches. The work before us is to 
harness both of these assets and come up with an approach 
properly suited to the safety and success of the challenging 
missions to come.
    This is an historic opportunity to put to work, side by 
side, decades of space operations and regulatory experience to 
write the next volume of American excellence in spaceflight. 
The FAA is excited to be part of the story.
    Chairman Nelson, this concludes my prepared remarks. At the 
appropriate time, I would be pleased to answer any questions 
that you might have.
    [The prepared statement of Dr. Nield follows:]

  Prepared Statement of Dr. George C. Nield, Associate Administrator, 
      Office of Commercial Space Transportation, Federal Aviation 
                             Administration
    Chairman Nelson, Ranking Member Vitter, and members of the 
Subcommittee:
    Thank you for inviting me to participate in this hearing on 
commercial space transportation capabilities. I would like to start by 
briefly reviewing the role that the Federal Aviation Administration 
(FAA) has played in regulating unmanned commercial launches for the 
past twenty-five years. I will also address our involvement in plans 
for private citizens to fly on commercially-operated suborbital space 
flights. Finally, I will speak to the issue of commercial capabilities 
to deliver National Aeronautics and Space Administration (NASA) crews 
to the International Space Station in Low-Earth Orbit and returning 
them safely to Earth.
    The FAA's Office of Commercial Space Transportation was established 
by Executive Order in 1984 and was located in the Office of the 
Secretary of Transportation. The office was transferred to the FAA in 
November 1995, where today we are one of the FAA's four lines of 
business, along with Aviation Safety, Airports, and the Air Traffic 
Organization.
    In accordance with Federal statute, our mission is to ensure 
protection of the public, property, and the national security and 
foreign policy interests of the United States during commercial launch 
and reentry activities, and to encourage, facilitate, and promote 
commercial space transportation. Our top priority is safety. Some of 
the ways we carry out our safety responsibilities include developing 
and issuing regulations; granting licenses, permits, and safety 
approvals; and conducting safety inspections during every licensed or 
permitted launch. Our safety record to date has been excellent: since 
1989, we have licensed the launch of 201 commercial vehicles without 
any loss of life, serious injuries, or significant property damage to 
the general public.
    We are also responsible for licensing the operation of launch sites 
or ``spaceports.'' Since 1996 we have licensed the operation of the 
California Spaceport at Vandenberg Air Force Base; Spaceport Florida at 
Cape Canaveral Air Force Station; the Mid-Atlantic Regional Spaceport 
at Wallops Flight Facility in Virginia; Mojave Air and Space Port in 
California; Kodiak Launch Complex on Kodiak Island, Alaska; the 
Oklahoma Spaceport in Burns Flat, Oklahoma; Spaceport America near Las 
Cruces, New Mexico; and just this January, Cecil Field in Jacksonville, 
Florida.
    In 2004, Congress expanded our regulatory role when it approved the 
Commercial Space Launch Amendments Act of 2004. The Act provided 
direction to the FAA on how to regulate launches carrying people. 
Noting that ``space transportation is inherently risky,'' Congress 
referred to those joining the crew onboard a spacecraft as ``space 
flight participants'' rather than ``passengers.'' Participants will fly 
under a policy of informed consent, which means that they must be 
briefed verbally and in writing about the risks involved. They will 
then be required to sign a document indicating that the risks have been 
communicated and understood. Then and only then will they be allowed to 
board the craft and proceed with the launch. The crew is considered to 
be part of the vehicle's flight safety system, so that launch operators 
will need to protect the safety of the crew in order to protect the 
public. In our implementing regulations, we identify performance 
requirements for environmental control and life support systems, smoke 
detection and fire suppression, and human factors, as well as the need 
for a verification program.
    One of the key challenges we are facing right now involves the 
beginning of a new segment of the industry: suborbital space tourism. 
We are currently working with about a half dozen companies that are in 
the process of designing, developing, and testing vehicles that will be 
capable of carrying people up to the edge of space. We know that not 
all of these companies will be successful. Some will experience 
technical difficulties, while others will struggle with the necessary 
financing. But there are enough very capable and well-funded groups 
currently working on this effort that I am confident that in the next 
few years we will see multiple companies conducting several suborbital 
launches per week. That will mean hundreds of launches per year, with 
thousands of people having an opportunity to experience spaceflight 
firsthand.
    With that background, let me speak to FAA's approach to regulating 
the commercial launch and reentry of commercial vehicles carrying 
humans to orbit.
    In its final report, which was issued on October 22, 2009, the 
Augustine Committee noted that ``Commercial services to deliver crew to 
low-Earth orbit are within reach,'' and that ``while this presents some 
risk, it could provide an earlier capability at lower initial and life-
cycle costs than government could achieve.''
    As compared to suborbital missions, orbital flights include a 
number of additional challenges. To begin with, the mission durations 
of orbital flights will be significantly greater than those for 
suborbital flights. While a suborbital flight will most likely be 
measured in minutes, orbital operations are typically measured in days. 
As a result, the period of continuous, reliable system performance that 
will be needed is much greater. In some cases, such as for 
environmental control and life support, or thermal protection systems, 
additional systems, or more complex systems, may be required for 
orbital flights.
    Moreover, and of extraordinary importance, is the fact that the 
energy involved in going to and returning from orbit is much greater 
than for suborbital flights, and in general, that means that the 
hazards will also be increased. Finally, most orbital missions will 
need to have a launch abort system to allow those on board to safely 
separate from a malfunctioning booster.
    Questions have been raised about how the U.S. Government should 
address licensing and safety issues associated with commercial crew 
missions to the International Space Station. Certainly the process will 
not be easy. These are challenging matters not easily reducible to 
checklists or go/no-go criteria. But I believe that there is enough 
good will, skill, and ability among the involved parties to produce 
appropriate government oversight and regulatory frameworks.
    To begin with, the FAA has a solid working relationship with NASA. 
For example, it has already been decided that all of the launches for 
the Commercial Orbital Transportation Services (COTS) program and the 
Cargo Resupply Services (CRS) program will be licensed by the FAA, and 
the licensing requirement is included in the respective Space Act 
Agreements and contracts. So as the launch operators demonstrate the 
ability of commercial vehicles to deliver cargo to the International 
Space Station, NASA and the FAA will have the opportunity to 
demonstrate that we can seamlessly provide the needed government 
oversight for cargo missions, well before any commercial crew missions 
are scheduled.
    Second, both Agencies approach this next regulatory effort with a 
pair of complementary advantages. For one thing, NASA has built an 
unequalled body of experience carrying humans safely to and from orbit. 
No one has done this work better than NASA, across nearly fifty years 
of human spaceflight. At the same time, the FAA's Office of Commercial 
Space Transportation has more than twenty-five years of experience in 
regulating commercial space launches. Some of the aspects of FAA 
licensing include existing processes for determining insurance 
requirements and executing cross-waivers, government indemnification 
subject to appropriations for third-party excess claims, and the 
ability of the FAA to take enforcement actions (including license 
suspension or revocation or levying fines) if those steps are necessary 
to ensure compliance with license terms and conditions.
    The work before us is to harness both of these assets and come up 
with an approach properly suited to the safety and success of the 
challenging missions to come. NASA brings vast know-how to the work 
ahead. In addition, several of the potential commercial vehicle 
providers bring decades of excellence in actually designing, building, 
and operating the hardware that has been used in our Nation's space 
programs. At the same time, several new developers have indicated their 
interest in joining the competition, and are eager to prove themselves 
on the launch pad and beyond. And because of Congressional foresight a 
generation ago for expendable launch vehicles, and more than 5 years 
ago for commercial human spaceflight, we have a sound regulatory 
foundation already in place to support our needs.
    In short, this is an historic opportunity to put to work, side-by-
side, decades of space operations and regulatory experience to write 
the next volume of American excellence in spaceflight. The FAA is 
excited to be a part of the story.
    Chairman Nelson, Ranking Member Vitter, members of the 
Subcommittee, this concludes my prepared remarks. At the appropriate 
time, I would be pleased to answer any questions you might have.

    Senator Nelson. Thank you, Dr. Nield.
    Mr. Malcolm Peterson is the former NASA Comptroller, and he 
is going to address the practical obstacles to NASA's 
utilization of commercial carriers for cargo and crew, such as 
pricing, procurement, and contract issues.
    Mr. Peterson.

               STATEMENT OF MALCOLM L. PETERSON, 
                    FORMER NASA COMPTROLLER

    Mr. Peterson. Thank you, Mr. Chairman.
    I just want to point out something, that, in terms of 
NASA's safety record, I think I would put the Russian Soyuz 
program up against our safety record. It is not--we are not 
unparalleled. And it is important to remember, in this case, in 
this discussion that we are having, that we are talking about a 
commercial venture. Now, a commercial venture means that 
private money is at risk. It normally also means that the 
private venture is willing to obtain insurance at a reasonable 
cost, and that it can have--in addition to investors, it can 
achieve bank financing to handle letter-of-credit issues and 
the like, of course, as it experiences its manufacturing 
processes.
    We have the equivalent of a commercial crew capability to 
the Space Station right now. We have had it in the past; it's 
called the ``Soyuz.'' The commercial U.S.-sourced crew carrier 
will be in a competitive environment with the Soyuz. It will 
pose a great challenge to them, other than the required 
business, if you will, from NASA, carrying government 
astronauts, to compete for other astronauts.
    If you'll think of it, whether it has tourists or what have 
you, I think it will be a price-competitive environment, and 
the current price for Soyuz, I believe, is roughly $150 million 
for three crew. That will be a very difficult hurdle.
    Now, the question that comes to me, as an old NASA 
comptroller is, Why are we doing this? And that question goes 
to the heart of the ability to sustain governmental support for 
a development. If you don't have a good argument for sustaining 
that development, it will fall apart over time. And I am deeply 
concerned about the investment risk that goes with this, one of 
which is, if I am an investor, and I'm looking at the horizon 
for the return on my investment, what is that horizon? The 
Space Station's continued existence is not assured. We are on 
unknown territory, in terms of the longevity of the Space 
Station. We have technical risks, we have programmatic risks.
    One programmatic risk was seen by the last administration, 
which said, ``Let's not fund the Space Station beyond 2015.'' 
Now, whether or not I believe that was a false canard doesn't 
make any difference. They were willing to say that Space 
Station enjoyed so little priority, that it was better for the 
U.S. to put its energy into beyond-low-Earth-orbit activities.
    I do not know whether other governments, such as the 
Japanese, the Canadians, the European Space Agency or the 
Russians, will have similar questions as we go forward. I would 
not discount the possibility, nor would I discount the 
possibility that the investor community will look at the risks 
associated with this venture and want to have what, in essence, 
would be a guaranteed return on investment, consistent with its 
risk. That risk hurdle for a venture like this should be on the 
order of 40 to 45 percent. It is, therefore, in my opinion, a 
difficult case to make, that this will be a commercially 
successful vehicle, without extraordinary participation by the 
U.S. Government.
    I want to say how much I enjoyed listening to General 
Stafford. I know all too well what the costs of human 
spaceflight are. They are not in design. They are in practice. 
They are in documentation. They are in the paper trail. They 
are in endless reviews to make sure we're doing the right 
thing. There are so many cameras down at the Cape, for every 
Shuttle launch, that if you were doing a practical view of how 
to save money, you certainly would not proceed that way. But, 
that is the price of human spaceflight. We do not like to kill 
people, and nor do I think we should.
    By the way, I think commercial cargo will succeed very 
well. I have my doubts about commercial crew.
    Thank you.
    [The prepared statement of Mr. Peterson follows:]

   Prepared Statement of Malcolm L. Peterson, Former NASA Comptroller
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear today to express my views on commercial space 
capabilities. I have an abiding interest in the subject, and I appear 
before you without any interest to pull my punches. My background as a 
NASA program analyst for some thirty years gave me some insight about 
the NASA side of the issue. After my retirement, I have worked 
occasionally as a consultant to contractors doing business with NASA. 
However, I lack the intimate familiarity with the contractor side of 
the government-contractor relationship that only time spent in that 
environment can afford. This limitation should be accordingly noted, 
and I apologize to all concerned in the commercial space community if, 
inadvertently, I poorly articulate your case.
    My remarks focus on the intended use of U.S. commercial space 
capabilities to address U.S. Governmental responsibilities under the 
international partnership agreement for the International Space 
Station. The impetus for this policy proposal was provided by the 
Augustine Committee's findings last year, which recommended ``the 
development of a relatively simpler launcher and capsule designed only 
as a low-Earth orbit crew taxi.'' The costs for this development were 
estimated to be lower than those associated with the development of the 
Ares 1 launcher and the Orion spacecraft. As a commercial venture, the 
Committee envisioned that ``at least some commercial capital must be at 
risk.'' The Committee report notes that it heard ``many argue that 
economic efficiencies could be found by striking a better balance 
between the legitimate need for a NASA quality assurance and safety 
process on one hand, and allowing industry to execute design and 
development efficiently on the other.'' Moreover, the Committee raised 
the prospect that ``some development costs, and a larger fraction of 
operating costs of a commercial crew service to low-Earth orbit could 
be amortized over other markets and customers.''
    At the outset, let me state that I do not doubt the technical 
ability of commercial or ``commercial-like'' enterprises to supply 
cargo and crew services for the International Space Station (ISS). 
Launch vehicles and spacecraft that provide cargo and crew services are 
already servicing the ISS. Indeed, the Russian vehicles operate in a 
``commercial-like'' manner, with proving both cargo and crew for a 
price to all who can afford the bill, including some particularly hardy 
and wealthy private citizens. The international partnership takes full 
advantage of the reliability and safety of the Progress spacecraft to 
carry cargo; just recently, two new spacecraft became available to 
carry cargo, the Ariane Transfer Vehicle and Japanese HTV. The Soyuz 
carries crew to the ISS and returns them to Earth, and does so 
satisfactorily enough the U.S. Government deemed it acceptable a number 
of years ago to retire the Space Shuttle by 2010 and allow a lengthy 
period of time when no alternate U.S.-sourced mode of crew 
transportation would be available until the advent of the Orion 
spacecraft and its launcher, the Ares I.
    With the proposed cancellation of the Constellation program, the 
current Administration has proffered the substitution of the Orion, an 
advanced U.S. crew capsule, with the concept advocated by the Augustine 
Committee, a U.S.-sourced ``commercial'' crew delivery and return 
system. This new system is said to be ``a simple spacecraft with a 
simple mission'' that by being commercially developed for the ISS 
mission will allow NASA to focus on the more challenging beyond-LEO 
missions of the future. The budget estimate for the cost to the U.S. 
over the next 5 years for this effort is $6 billion, a figure close 
enough to the Augustine Committee's finding that the program ``can be 
viable with a $5 billion stimulus from NASA.''
    The concept of a U.S.-sourced simple spacecraft to address ISS 
mission needs is attractive to those who find it untenable for 
political reasons that the U.S. pay Russia for Soyuz launch services or 
for program ``robustness'' reasons, a reliance on a single mode for 
crew access. Some commentators worry that the Russians will hold us 
``hostage'' and raise the prices for the Soyuz or that the U.S.-Russian 
relationship will sour. The political argument is, in my way of 
thinking, disingenuous. The program robustness concern is not, but 
there is no good immediate answer to the problem it raises. Both are 
clearly subject to the countering punch that the barn door was open 
previously (post-Columbia), is soon to be open again, and will remain 
open for a number of years. U.S.-sourced payloads are already launched 
on non U.S.-sourced launchers. Although there is some merit to the 
trade deficit issue, sending U.S. funds abroad to buy foreign goods and 
services is common practice, and the amounts sent to Russia are 
relatively trivial in that larger context. So, the balance of payments 
argument is weak. Those who obviously lack trust in the Russian 
entities conveniently ignore the interdependent nature of the U.S.-
Russian relationship that has been in existence and will be for a 
number of years, for as long as the ISS is operable.
    Why attempt to close the barn door at some point in the future? Is 
there is a concern that the crew/cargo delivery products made in Russia 
will develop quality defects that will escape detection and cause ISS 
service outages? Even if that is a real problem looming on the horizon, 
and I would not dismiss it as an unreasonable postulate, we are 
confronted with the fact that an alternative to the Soyuz for crew 
delivery will not be available for some years to come. If it is deemed 
an urgent problem requiring quick attention, the current commercial 
transportation service program proposition most assuredly is not an 
effective counter. A cynic might argue that the U.S. manufacturers 
could more speedily acquire the rights to produce the Soyuz spacecraft 
and launcher in the U.S., using build to print manufacturing and U.S. 
safety and mission assurance processes. Given the willingness of U.S. 
rocket engine manufacturers to procure Russian-sourced engines and 
purchase co-production rights, I wouldn't want to argue that there is 
no precedent for this and accordingly this is an untenable concept.
    Some have argued that we should ignore the arguments of the 
Augustine Committee and return to the program plan for Constellation. 
The availability of funding for executing this plan is a matter for the 
Congress and Administration to decide, so I will not opine on its 
feasibility. However, I will acknowledge that I was a fan of the 
original argument for Ares I and Orion. The program plan was based on 
the ``leapfrog'' logic. Effectively, this stemmed from a finding that 
there was little merit in producing a Soyuz wannabe. Hence, U.S. 
Government investment would be better spent for a more complex, capable 
design. The Orion and Ares I would receive the design maturation 
benefit for both spacecraft and launcher from undertaking LEO missions 
to the ISS, and then the additional incremental investment--for a 
better-outfitted Orion and the Ares V--would build on that experience 
to go to beyond-LEO missions. The problem the Bush Administration had 
with the plan was its affordability, unless the Shuttle expenditures 
could be ended, thus avoiding a further $3 billion per year increase to 
the projected NASA budget increases already envisioned in the outyears. 
Although there was some modicum of interest in a U.S.-sourced 
commercial cargo delivery solution, and funds were allocated to begin 
early work on it, there was no hesitation about relying on the Soyuz 
for crew delivery and return. As events have proven, the combination of 
funding constraints within NASA and normal technical challenges have 
led to a slip in the probability of an early Orion crewed mission to 
ISS by 2015. I don't know if the Augustine Committee was correct in 
assessing that the probable first ISS use date would be 2017, but 
clearly the Committee could argue cogently from past experience.
    I have no quarrel with the findings of the Augustine Committee 
about the need for increased funding to support the logic of the 
original argument, or its findings that there was a great need for 
additional investments in research and technology required for beyond-
LEO voyages. There were substantial defects in the logic of the program 
and budget plan NASA was saddled with by the Administration. However I 
believe the nexus of their argument for developing a U.S.-sourced 
``commercial transport service'' is grounded in their belief that there 
is a commercial space growth opportunity--in addition to LEO flights of 
crew and cargo to ISS--that can be seized by a U.S.-sourced commercial 
venture. This prospect will materialize only if the U.S. Government 
puts up the money and commits to a commercial transport service to meet 
its responsibilities under the ISS partnership agreement.
    I agree that there is sound logic behind the logical proposition 
that if: (a) the U.S. Government underwrites the bulk of the 
development costs and ``makes the market'' by committing to an annual 
crew delivery quota, then (b) the marginal costs--for increasing the 
spacecraft and launcher production rate and address operational 
requirements--could form the basis for a price-competitive market 
penetration. To follow the logic, the increased utilization of the 
launcher would lead to a drop in the unit cost (and increase in 
competitiveness, and ultimately profit margin) for the launch 
manufacturer. The crew spacecraft carrier would enjoy a high consumer 
confidence level due to NASA and FAA's involvement in its ``man-
rating,'' and additional spacecraft could be produced at marginal costs 
to carry (for example) tourists, all because U.S. Government funds 
financed the basic spacecraft production capability. It is essential 
for this proposition to succeed that the spacecraft be simple, yet 
safe, and that the U.S. governmental mission requirements be 
constrained in scope to avoid higher unit production costs for bells 
and whistles.
    I also agree that the development costs for the crew capsule will 
clearly be less than required to execute the more complex, capable 
design for Orion. The annual funding increment required to be disbursed 
from the Treasury will be comparatively less, an especially important 
consideration given the priority assigned to civil space and 
aeronautics programs in the Federal budget. And, for those who favor 
beyond-LEO voyages, the Administration proposes Congress agree to 
allocate a portion of the NASA budget to research and technology 
development to address those needs. I am an ardent fan of this 
investment proposal.
    Why should there be any doubt on the part of Congress that this 
commercial transportation services venture will result in an 
appropriate return on the investment both to U.S. taxpayers and private 
investors?
    One important reason for caution is the uncertainty as to the 
useful service life of the new crew and cargo service spacecraft. After 
the retirement of the Space Shuttle, the sustainment of the ISS as a 
viable spacecraft is a major undertaking, presenting future 
maintenance, repair, and enhancement uncertainties that could impact 
its useful life, whether that is to 2020 or even 2028. A major 
uncertainty is the ability to respond to game-changing events onboard 
the ISS, such as crew evacuation and return to Earth, or an extended 
period of minimal operational capability because necessary repairs 
cannot be accomplished by applying available on-orbit spares, or where 
the orbital replacement unit required for the repair exceeds the volume 
or lift capacity of cargo supply vehicles.
    Another uncertainty is whether the participating nations will 
allocate the necessary future funds to respond to future ISS 
operational requirements, particularly if technical or programmatic 
events require an unanticipated spike in funding requirements. How long 
will the ISS last as a mission-capable spacecraft? How long will the 
international partners be willing to keep operating it? This is a 
critical issue for private investors because the commercial model 
assumes the revenue stream provided by the U.S. Government is lengthy 
enough to ensure the profit potential from the expansion of the LEO 
tourist trade, the key to their receiving an adequate return on their 
investment.
    Putting aside the engineering challenge of sustaining the ISS, we 
should not assume the investment community dismisses out of hand the 
possibility of a change in the international partners' willingness to 
support ISS operations over an extended period of time. I highlight 
this point because our nearly five decades of human spaceflight 
illustrate the waxing and waning priorities of governmental entities 
engaged in human spaceflight. And, I don't mean just the U.S. Federal 
Government, but also the priorities of the other ISS partners: the 
Federal Government of Russia, the nations supporting the European Space 
Agency, the Government of Japan, or the Government of Canada. To that 
mix, there are many others who are or will be involved in future human 
spaceflight, most notably the governments of China and India, and in a 
collective sense the United Nations. The changes in priorities over 
time have been driven, in my opinion, predominately by these 
governments assigning greater or lesser value to how its human 
spaceflight program contributed to national security objectives.\1\
---------------------------------------------------------------------------
    \1\ The oldest case in point is the U.S. response to the Sputnik 
launch and follow-on launches of cosmonauts. More recently, I am not 
alone in suggesting that the U.S. involvement in the International 
Space Station's development survived in 1993 largely due to our 
national security interest in keeping Russian scientists and engineers 
off breadlines. The Bush Administration's lack of interest in planning 
budgetary resources to sustain U.S. participation in ISS beyond 2015 
can be viewed as an indication of the priority it assigned to ISS.
---------------------------------------------------------------------------
    Although the development of the ISS and its initial years of 
operations have promoted collaborative engagement with our former 
adversaries and economic competitors, the future expected return on 
investment for the ISS on national security grounds is uncertain. (That 
could change, of course, if the international partnership expanded to 
take in the People's Republic of China and other nations, thus 
increasing the value to the U.S. for remaining in this collaborative 
engagement and a higher priority in the U.S. Federal budget.) The 
arguments on other grounds--economic, and research returns for 
instance--for continuing to invest in the international partnership are 
good, but not as compelling as the national security argument as 
reasons for governments to stay committed.
    What assurance should a prospective investor take from the 
historical record of governmental investments in risky ventures that 
would lead them to invest funds in a collaborative government and 
industry ``commercial'' venture without an insurance policy? And, would 
he be able to recover his investment and his foregone opportunity 
costs? Who would provide that insurance? And, from the Federal 
Government's point of view, how would including costs of insurance 
impact the total program costs? From my experience, I have difficulty 
believing that our government will make an enduring commitment to 
provide whatever level of resources is necessary to ``make the market'' 
and ensure an adequate return on investment for U.S. commercial 
suppliers of cargo and crew services. It is conceivable that the 
Executive and Legislative branches might agree to appropriate 
sufficient funding guarantees that would mitigate the investment risk. 
However, I would not dismiss the possibility that other nations and 
their commercial entities would view the U.S. Government's underwriting 
of the investment risk as creating the potential for an unlevel playing 
field in the competition for non-governmental flights, such as space 
tourism. I would expect them to argue that the U.S. firms' pricing must 
include some factor related to governmental investment cost recovery. 
If this is viewed by the investment community as a real threat, the 
financial attractiveness of the commercial venture would be further 
diminished and require an offsetting remedy.
    The Augustine Committee ``estimated that the cost to NASA of 
creating an incentive for industry to develop the commercial transport 
capability for crew . . . of between $2 billion and $2.5 billion.'' 
Another component of their total program cost estimate is the provision 
by NASA to bidders of a ``suitable version of an existing booster with 
a demonstrated track record of successful flight.'' The fraction of the 
launch vehicle design, development, test and evaluation costs that 
would be borne by NASA was estimated to be another $3 billion. Based on 
material available from NASA and public sources, the $3 billion would 
cover the unique costs of ``man-rating'' the launch vehicle and 
associated infrastructure investments. The Augustine Committee also 
looked back to a historical analogy, the Gemini program, and reviewed 
its program costs, applied GDP-inflator corrections. They believed the 
result--$2.5 billion to $3.0 billion, in 2009 dollars--provides a 
sanity check on their total program cost to NASA of $5 billion. I 
cannot comment on the credibility of these estimates, given my lack of 
access information to the detailed cost estimating and financing 
assumptions used. However, I can provide this Committee with some 
thoughts based on my extensive experience with program cost and 
schedule estimates, the interaction with funding constraints, and the 
unique complications introduced by the lack of failure tolerance in the 
human spaceflight arena.
    First and perhaps foremost, human spaceflight activities are 
fanatical about attention to detail and documentation of processes and 
products, through the phases of the hardware/software design 
engineering, manufacturing phase, and test and evaluation phases. The 
designs have to be robust, with as much margin as possible to handle 
off-nominal conditions with margin remaining. Changes in designs are 
subjected to rigorous, time-consuming reviews. The close coupling of 
hardware and software functionality in current vehicle designs requires 
an integrated analysis to ensure changes do not introduce unintended 
consequences. Every manufacturing discrepancy is scrutinized, and 
``use-as-is'' buyoffs of blemished hardware are extremely low. Hardware 
and software are subjected to exacting tests. Unanticipated test 
results are reason enough to redo the large performance simulation 
models that engineers use to establish the anticipated vehicle response 
to environments. Care is taken in every possible fashion to mitigate 
the physical stress of ascent and descent loads and other stressful 
conditions on the human crew member. The high acceleration forces 
allowed for cargo transport to orbit are not acceptable for humans. 
Meetings are recorded and documented, decisions are not made in haste, 
and caution rules the day. Every aspect of the process, from raw 
material acquisition to finished product, is certified. ``Off the 
shelf'' products, designed for different environments and built to less 
exacting standards, are not incorporated without rigorous 
certification. Everything is apprised with an eye to whether it would 
meet a post-failure review board's excoriating analysis. As Gene Kranz 
famously said, ``failure is not an option.'' Nonetheless, in human 
spaceflight, systems are designed to be sufficiently robust that there 
is a remedy to failure for almost every system. The ``fail-operational, 
fail-operational, fail-safe'' philosophy is incorporated wherever 
feasible.
    How much will a human-rated crew spacecraft and launcher cost? 
Should the Committee accept the Augustine Committee's use of Gemini as 
an analogy as appropriate. Or, was the environment so different in the 
early 1960s that the cost comparison is only of limited value? We 
certainly know that today's world of avionics and hardware/software 
integration is lightyears different. I confess that I am not the person 
with the level of detailed knowledge required to provide this Committee 
with an assessment of the appropriateness of the analogy. Perhaps 
General Stafford, a Gemini crew member, can provide some insight. I 
would note the historical literature suggests that the cost and 
schedule baselines for Gemini cited by the Augustine Committee need to 
be placed in context, and used--if at all--only as adding a limited 
value to the discussion.
    Having noted my limitations on the subject, I would point the 
Committee's attention to several Gemini attributes that give me concern 
about the analogy's appropriateness. First, I doubt that current 
program planners would accept the risk taken by the Gemini program 
designers to have only ejection seats for the three person crew. (No 
emergency escape rocket was provided for the crew capsule in the event 
of a failure of the Titan II.) Although General Stafford is far more 
informed than I am, I will hazard my opinion that the likelihood was 
small that the crew would survive a failure of the launch system during 
all but the first seconds of the ascent. That said, it is important to 
understand that the Titan II design had one really good feature for 
crew safety; it used a storable hypergolic liquid propellant. This gave 
it a much lower explosive potential than the Titan I, Redstone, Atlas 
and Saturn boosters. The design is also inherently less costly. The 
propellant, plumbing, tankage and engines of a storable hypergolic 
fueled vehicle permit increased design and manufacturing tolerances, 
and less hazardous launch site environments than do launchers using 
liquid oxygen and (particularly) liquid hydrogen.
    A second point from the Gemini literature indicates that the 
schedule (39 months) and cost-estimate ($2.5-3.0 billion) analogies 
cited by the Augustine Committee need further research to determine 
their appropriateness. For example, the literature points out that 
``man-rating the Titan ICBM required minimal changes to the basic Titan 
II. Changes were made in the interest of pilot safety (e.g., system 
redundancies); some modifications were also necessary to ready the 
basic ICBM to accept the Gemini payload.'' \2\ The literature does not 
indicate whether a separate production line was established at the 
Martin Company to produce the twelve man-rated vehicles, and how that 
impacted costs, favorably or unfavorably. The literature does indicate 
that the 39-month development period for Gemini cited by the Augustine 
Committee does not take into account the development schedule funded by 
the Air Force prior to NASA's selection. Specifically, the Air Force, 
building on the experience with the Titan ICBM, awarded a contract in 
June 1960 to the Martin Company for the Titan II ICBM development. 
Although the first Titan II ICBM R&D flight took place in March 1962, 
NASA had selected the Titan II, appropriately man-rated, as the vehicle 
of choice for Gemini in the Fall of 1961. The program had its 
development issues to overcome, although not an inordinate number of 
them. However, NASA maintained a fallback position to use the Saturn I 
until second state combustion instability problems were solved (jointly 
by the Air Force and NASA in the Spring of 1963) and a series of 
successful Titan II test flights occurred in late 1963. (It is unclear 
from the Gemini literature whether the costs incurred by the Air Force 
in support of the Titan II man-rating were funded by NASA.) The first 
Gemini qualification launch occurred in April 1984, a second 
qualification launch (for spacecraft qualification) occurred in January 
1965, and the first Gemini crew was launched in March 1965. Twelve (12) 
Gemini launches in total were flown by NASA, ten of them with crew. All 
successful.
---------------------------------------------------------------------------
    \2\ Source: NASA Historical Data Book, volume II, p. 84.
---------------------------------------------------------------------------
    The Committee may also wish to examine more carefully the arguments 
of advocates for the commercial crew and cargo launch services 
proposition to the effect that benefits would accrue to the global 
price competition environment for existing launch vehicles (such as the 
Atlas V) by increasing the launch rate and thus achieving lower per 
unit costs. This is an argument that requires careful explication of 
assumptions before undue credence is given. As I noted above, the human 
spaceflight environment is inherently costly due to its exceedingly low 
tolerance of any risk and demand for exhaustive levels of documentation 
throughout the engineering, manufacturing, test and launch 
environments. Economies of scale in production environments are 
realized when the same processes and products are used throughout. 
These economies are minimized if, for instance, commercial and 
government customers find the increased costs of man-rated processes to 
be overkill. Separate production lines are a possible outcome. That is 
not to say there are not savings from the distribution of facility 
support, indirect, and overhead costs across a broader user base. There 
are, but the savings are insignificant unless the relatively fixed 
costs of engineering, manufacturing, and supply chain management are 
very high proportionately to the production rate.
    I also worry about the credibility of the arguments put forth to 
the Augustine Committee and included in the report that a ``better 
balance [can be struck] between the legitimate need for a NASA quality 
assurance and safety process on one hand, and allowing industry to 
execute design and development efficiently on the other.'' My 
experience with NASA is somewhat dated, given my departure from the 
agency in 2003, but I had many occasions during my tenure to listen to 
contractors complain about time-consuming and documentation-laden NASA 
reviews. Time is money, of course, and an unduly lengthy review process 
before a decision is rendered by NASA impedes the timely accomplishment 
of work. But complaints often arise when the government-contractor 
relationship is damaged, and the contractor believes NASA staff--civil 
service and support contractors--do not participate as collaborators, 
with a sense of shared urgency. Most frequently I found the argument 
was about broken promises and the need for more money. NASA program 
managers are not welcomed with open arms by their management when they 
return from discussions with contractors who need more money than the 
budget affords. NASA program managers often find that the contractor 
has different priorities when it comes to assigning the ``best and 
brightest'' to their programs. And, the same is true of NASA 
priorities, which change over time, again as a reflection of NASA 
managers striving to stretch resources across programs to meet emergent 
problems.
    The procurement environment for cost-reimbursement contracts is 
inherently adversarial, of course, because NASA's abiding interest is 
(or should be) ensuring the public's money is expended effectively, 
with as much accountability as possible, and in compliance with the law 
and procurement regulations. Among those legal and regulatory 
constraints are those which address socio-economic objectives, national 
security objectives (e.g., ITAR), financial management (Prompt Payment 
Act, etc.) and identification of liability. Compliance with these 
constraints adds costs to the contract, and reduce the contractor's 
flexibility.
    However, the Augustine Committee's report language caused me to 
wonder if those who pressed the ``excessive oversight'' argument 
understood the burden placed on the government officials who must 
address the ``insurance'' responsibilities of the government. To simply 
state the matter, NASA does not take out an insurance policy from 
Lloyd's to cover the consequences of failure. These consequences 
include not only the out-of-pocket costs but the consequent damages to 
program objectives. Instead, the government ``self-insures.'' This 
avoids the expenditure of public funds to pay the premiums on the 
insurance policy provided by a private concern. However, the 
concomitant responsibility placed on government officials is to assure 
the taxpayers that they have been diligent in reducing the probability 
of loss of lives, hardware, and mission accomplishment. NASA officials 
agree to take constructive delivery of hardware and software from 
contractors, and sign on the dotted line. NASA officials consent to the 
launch and accept the liability for failure. Hence, processes must be 
designed to protect against those consequences, with their scope 
consistent with the amount of potential loss. Smaller consequences 
receive less attention than larger ones. Over the course of years, we 
have adjusted our oversight/insight insurance plans to fit the 
environment of acceptable risk. After the Challenger and Columbia 
disasters, the hang-them-high environment led to a lower risk tolerance 
throughout the human spaceflight community. The costs incurred by NASA 
for the self-insurance policy went up accordingly. Over time, with 
demonstrated successes, a sense of higher confidence and trust builds 
up. But, the trust must be earned. The oversight and engagement levels 
of NASA in the commercial transportation service venture cannot start 
out low, in my estimation, because the trust has not yet been earned. 
However, as success accrues, the levels will diminish to what NASA and 
FAA officials agree is required to fulfill their insurance 
responsibilities.
    In closing, let me note that during my thirty years in NASA as a 
program analyst, cost estimator, budget formulator and Comptroller, I 
became all too familiar with the internal U.S. Government debates about 
how much of the scarce Federal budget resources should be allocated to 
meet the needs of mounting human spaceflight programs. I was a member 
of the supporting cast to the NASA Administrators for many of those 
years when they met with the members and staff of this Subcommittee to 
explain and advocate for the Administration's priorities. As 
representatives of the executive branch, we were not here to express 
our personal and professional views of the wisdom of those policies and 
priorities. Your challenge was then and is now difficult: how to 
discern the wisdom of the Administration's program and budget plans, 
not only in regard to civilian government space activities, but also 
within the larger context of public policy across the Federal 
Government.
    Thank you for the opportunity to testify.

    Senator Nelson. Thank you, Mr. Peterson.
    Mr. Michael Gass is President and Chief Executive Officer 
of United Launch Alliance. He's going to address a strategy and 
a timeline for supporting crew to LEO and the possible 
obstacles to such development.
    Mr. Gass.

          STATEMENT OF MICHAEL C. GASS, PRESIDENT AND 
      CHIEF EXECUTIVE OFFICER, UNITED LAUNCH ALLIANCE, LLC

    Mr. Gass. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to appear today.
    The 3,900 women and men of United Launch Alliance are 
honored to be able to support our U.S. Government in commercial 
customers' missions with the most reliable best-value launch 
services with our Atlas and Delta rockets.
    Formed in December 2006, United Launch Alliance is a 50-50 
joint venture of the Lockheed Martin Corporation and the Boeing 
Company. The Formation of ULA brought together the launch 
industry's most experienced and successful expendable launch 
vehicle teams.
    The Atlas and Delta expendable launch vehicles have 
supported America's presence in space for more than five 
decades, with over 1,300 launches with impressive records of 
mission success. And I'd like to say, our heritage also 
includes the Titan that General Stafford talked about.
    Members may recall that the first American to orbit the 
Earth, John Glenn, was lifted into orbit on an Atlas rocket. 
Since then, the launch vehicles have evolved through innovative 
improvements accomplished by generations of engineers and 
technicians into today's expendable launch vehicle fleet. The 
rocket Glenn flew was used by both the Department of Defense 
and NASA, a concept that was right then and is available again 
today.
    Before I get to the central questions you asked, ULA, as a 
commercial launch service provider, would like to offer our 
support for the administration's proposed plan. As I stated to 
the Augustine Commission, our Nation must have the constancy of 
purpose to have a strong human and robotics science and 
exploration program. The plan that's proposed transcends any 
one company or agency solution, and it has the ability, if 
executed properly, to be affordable, sustainable, and flexible.
    The Administration's plan makes long-overdue investments in 
research, technology development, and upgrades to our launch 
ranges that are essential to ensuring United States remains the 
world leader in space.
    One critical investment that will have benefits to all 
future national security civil and commercial space mission is 
in our space liquid propulsion technology. I urge members to 
support these important technology investments.
    Plan also has the potential fostering growth in commercial 
space opportunities. But, I think it's important to note, given 
today's topic, that the consolidation of--to form United Launch 
Alliance was done, in part, because the commercial market 
projected in the late 1990s did not materialize, as was 
originally expected, and the remaining market was insufficient 
to sustain two healthy launch services providers. Therefore, we 
believe the Nation's human access to space should not be solely 
dependent on the success of future commercial markets.
    Now, let me address what ULA, as a proven launch service 
provider, is willing, and can, do to meet the demand for human-
rated launch services under the Administration's proposed 
commercial crew program.
    The EELV rockets provide the quickest and safest approach 
to closing the gap following the retirement of Space Shuttle. 
ULA believes there is a unique opportunity for NASA and the DOD 
to leverage the existing EELV systems toward meeting NASA's 
safety and reliability requirements for all missions at lower 
cost. ULA also believes that the system architecture of our 
EELV is extensible for future exploration beyond low-Earth 
orbit.
    We will be working with multiple companies that will 
compete for services--for crew services, and we plan to provide 
launch services in support of their proposals. We will apply 
our products and teams fairly in support of all of these 
companies. By leveraging the billions of dollars of private 
capital that ULA and our member companies have invested, and 
utilizing the existing launch infrastructure, we can support 
their test flights within 3 years.
    Use of EELV fosters a strong launch industrial base that 
enables efficient access to support numerous missions. In the 
past, our Nation had specific launch programs that served niche 
payload markets, and separate systems for NASA and DOD, each 
requiring separate infrastructure and industrial capabilities. 
This was inefficient and less reliable.
    In regards to the human-rating questions: Can a EELV be 
human-rated to support commercial crew? The simple answer is, 
``Absolutely.'' How quickly could these rockets be ready for 
human-rated flight? The rocket will be ready before the crew 
vehicle, primarily because the rocket already exists and is 
flying.
    The Atlas and Delta EELVs were designed, from the outset, 
with the primary goal of being as safe, as reliable as we 
possibly could make them for our customers. EELVs are tasked 
with launching the most sophisticated, highest priority, 
national security satellites. They also must get to orbit 
safely.
    What does it take to human-rate EELVs? Crew safety must be 
treated as an integrated solution between the crew vehicle, an 
inherently safe launch vehicle, and combined with a robust 
abort capability. ULA believes changes to the rocket are 
minimal. The basic rocket itself would remain the same, and we 
would add emergency detection systems that would provide the 
crew vehicle the necessary information to trigger a safe abort, 
if needed. ULA looks forward to the opportunity to work with 
NASA to validate our approach.
    On-the-ground pad modifications would be--need to be made, 
primarily to accommodate crew egress--ingress and egress to the 
rocket. The cost and complexity of these facility changes are 
relatively modest to the existing launch complexes, but, 
depending on flight rates, dedicated human-launch facilities 
should be considered.
    In summary, ULA supports the Nation's human spaceflight 
program and stands ready to assist in making it successful. 
EELV-based solutions provide a near-term, reliable solution for 
flying humans to low-Earth orbit. Use of the EELV fleet 
promotes synergy with national security space community, 
provides NASA with scalable options for heavy-lift exploration 
needs, and provides a foundation for U.S. space launch 
industrial base to prove its international competitiveness.
    Thank you again for inviting me. I look forward to you 
questions.
    [The prepared statement of Mr. Gass follows:]

           Prepared Statement of Michael C. Gass, President 
        and Chief Executive Officer, United Launch Alliance, LLC
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the Administration's plans for 
human spaceflight. My name is Michael Gass and I am the President and 
Chief Executive Officer of United Launch Alliance. The 3,900 women and 
men of United Launch Alliance are honored to be able to support our 
customers' missions with the most reliable, best value launch services 
with our Atlas and Delta rockets. Our customers are the Department of 
Defense, the National Reconnaissance Office, NASA, and commercial 
satellite system providers.
    Formed in December 2006, United Launch Alliance, LLC is a 50/50 
joint venture of Lockheed Martin and The Boeing Company. The formation 
of ULA brought together the launch industry's most experienced and 
successful launch vehicle teams to support the United States Air 
Forces' Evolved Expendable Launch Vehicle program (EELV) with the Atlas 
V and Delta IV products. We joined together as one company, one team, 
to enable the business sustainability to deliver improved mission 
success with lower cost to our customers.
    The Atlas and Delta expendable launch vehicles have supported 
America's presence in space for more than five decades, with over 1,300 
launches and an impressive record of mission success. These missions 
have carried a variety of payloads including national security, 
communications, navigation, weather, science, and commercial space that 
protect and improve life on Earth, as well as further our knowledge of 
the universe.
    Members may recall that the first American to orbit the Earth, John 
Glenn, was lifted into orbit on an Atlas rocket. Since then, the launch 
vehicle has evolved through innovative improvements accomplished by 
generations of engineers and technicians to today's EELV fleet. The 
rocket Glenn flew was used by both the Department of Defense and NASA 
for human spaceflight, a concept that was right then and is available 
again today.
    Before I get to the central questions you asked, ULA, as a 
commercial launch service provider, would like to offer our support for 
the Administration's proposed plan. As I stated to the Augustine 
Commission, our Nation must have the constancy of purpose to have a 
strong human and robotic science and exploration program. This program 
must transcend any one company or agency solution, and the 
implementation must be affordable, sustainable and flexible.
    The Administration's plan makes long-overdue investments in 
research, technology and upgrades to our launch ranges that are 
essential to ensuring the United States remains the world's leader in 
space. One critical investment that will have benefits to all future 
national security, civil and commercial space missions is in space 
liquid propulsion technology. I urge members to support these important 
technology investments.
    The plan also has the potential to foster and grow commercial space 
opportunities. I think its important to note, given today's topic, that 
the consolidation to form ULA was done in part because the commercial 
market projected in the late 1990s did not materialize as was 
originally expected and the remaining market was insufficient to 
sustain two healthy launch service providers. Therefore, we believe the 
Nation's human access to space should not be dependant on the success 
of a future adjacent commercial market.
    Now let me address what ULA, as a proven launch service provider, 
can do to meet the demand for human-rated launch services under the 
Administration's proposed commercial crew program.
    First, I'd like to say that ULA is ready, willing and able to 
support the human spaceflight program and help make it successful.
    The EELV rockets provide the quickest and safest approach to 
closing the gap following the retirement of the Space Shuttle. ULA and 
our member companies have invested billions of dollars of private 
capital into these systems that can be leveraged for our Nation's human 
access to space.
    ULA believes there is a unique opportunity for NASA and the DOD to 
leverage the existing EELV systems toward meeting NASA's safety and 
reliability requirements for all missions at lower costs.
    ULA also believes the system architecture of our EELVs is 
extensible for future exploration beyond low earth orbit by either 
leveraging the potential fuel depot technologies or by building heavy 
lift vehicles using the same modular concept that is inherent in our 
existing EELV fleet.
    We will be working with multiple companies to provide launch 
services in support of their commercial crew services. We will apply 
our products and teams fairly in support of all these companies. By 
leveraging our investments and utilizing existing launch infrastructure 
we can support test flights within 3 years.
    Use of EELV fosters a strong launch industrial base that enables 
efficient access to support numerous mission needs. In the past, our 
Nation had specific launch programs that served niche payload markets 
and separate systems for NASA and DOD, each requiring separate 
infrastructure and industrial capabilities. This was inefficient and 
less reliable.
Human-rating EELVs
    Can EELVs be human-rated to support commercial crew?
    The simple answer is absolutely.
    How quickly could these rockets be ready for a human-rated flight?
    The rocket will be ready before the crew vehicle--primarily because 
the rocket already exists and is flying.
    Let me explain further. The Atlas and Delta EELVs were designed 
from the outset with the primary goal of being as safe and as reliable 
as we could possibly make them for our customers. EELVs are tasked with 
launching the most sophisticated, highest priority national security 
satellites. The value of these assets to decision-makers, the 
intelligence community and the warfighter far outweighs their 
replacement cost. They must get to orbit safely. As a result, all that 
can be done to ensure mission success is done. Any additional NASA 
human rating requirements that enhance the launch vehicles reliability 
would benefit our national security customer's missions and we would 
incorporate these changes in the entire fleet.
    What does it take to human-rate EELVs?
    ULA believes changes to the rocket are minimal. The basic rocket 
itself would remain the same and we would add an Emergency Detection 
System (EDS). The EDS is essentially an electronics box that monitors 
the health of the rocket as it is flying and provides the capability 
for the crew vehicle to trigger an abort, if needed. Crew safety must 
be treated as an integrated solution between the crew vehicle and an 
inherently safe launch vehicle, combined with a robust abort 
capability. ULA looks forward to the opportunity to work with NASA to 
validate our approach.
    On the ground, pad modifications would need to be made, primarily 
to accommodate crew ingress and egress to the rocket. The cost and 
complexity of these facility changes are relatively modest. Depending 
on expected flight rate, dedicated human launch facilities will be 
considered.
    In summary, ULA supports the human spaceflight program and stands 
ready to assist in making it successful. EELV based solutions provide a 
near term, reliable solution for flying humans to low earth orbit. Use 
of the EELV fleet promotes synergy with the national security space 
community, provides NASA with scalable options for heavy lift 
exploration needs and provides a foundation for U.S. space launch 
industrial base to improve its international competitiveness.
    Thank you again for inviting me to testify. I look forward to your 
questions.

    Senator Nelson. Thank you, Mr. Gass.
    Frank Culbertson, Jr., is the Senior Vice President and 
Deputy General Manager of the Advanced Programs Group of 
Orbital Sciences. He is also an astronaut, and he will discuss 
Orbital's role in the crew development capabilities.
    Mr. Culbertson.

  STATEMENT OF FRANK L. CULBERTSON, JR. (CAPTAIN, USN, RET.), 
   SENIOR VICE PRESIDENT AND DEPUTY GENERAL MANAGER, ORBITAL 
         SCIENCES CORPORATION, ADVANCED PROGRAMS GROUP

    Mr. Culbertson. Thank you, Mr. Chairman, and good 
afternoon. And, Senator Hutchison, good to see you again.
    I appreciate the opportunity to participate in this hearing 
regarding commercially-developed crew delivery to low-Earth 
orbit. I'm truly humbled to be a part of such an esteemed 
panel. I'm sitting here between two presidents, at least one 
Ph.D., a financial guru, and a couple of my heroes, including 
the General. So, it's nice to be a part of this company, and I 
hope I can shed some light on what Orbital Sciences intends to 
do to support the programs, going forward.
    As you know, Mr. Chairman, when you put on the suit and get 
in the spacecraft, you have to depend on a lot of people to 
make sure that things are going to go right. Those of us that 
do that are oriented toward achieving mission success through 
thoughtful management of risk. Everyone who flies has the 
utmost confidence that the dedicated men and women of the NASA 
contractor team do everything humanly possible to ensure crew 
safety. That fact must not change as new programs and goals are 
developed for human spaceflight, including in the commercial 
world.
    At Orbital, I'm responsible for oversight of our programs 
relating to human spaceflight, including not only cargo 
resupply and the Signa Spacecraft, with its Taurus II launch 
vehicle, but also the development of the Orion launch abort 
system for the Constellation Program, a key element of any 
spacecraft with humans on board.
    In addition to our 28 years of work in other areas of 
spaceflight, such as satellites and launch vehicles, Orbital is 
totally committed to supporting the future of human spaceflight 
in this country, as well as to exploring business approaches 
that will continue to make space more accessible and productive 
for all potential users.
    We have over 200 successful launches behind us, 500 
successful missions, and we have 900 missions either on order 
or completed to date. And the company is well versed in the 
complexities and intricacies of flying into space.
    Given the stated concern as to whether the commercial space 
industry is robust enough to develop reliable transportation 
services for crew to low-Earth orbit within a reasonable time, 
at a fair cost, and, most importantly, with the requisite 
safety margins, Orbital believes, as do I, that U.S. industry, 
given the right conditions, relationships, and investments, 
should be able to develop and demonstrate safe and reliable 
crew transportation systems for access to the ISS.
    NASA's proposed funding of about $6 billion over the next 5 
years, together with the addition of appropriate private 
capital, should be sufficient to enable at least one, and 
probably two, commercially provided crew systems to be 
demonstrated by 2015.
    I'm confident that commercial providers and NASA can work 
together to establish the proper safety and performance 
standards, the fundamentals of which are already well 
established, that will enable industry to continue the current 
successful era of U.S. human spaceflight, both for U.S. 
Government missions and for other markets as they develop.
    I would also expect that industry will make proper use of 
NASA's manpower, expertise, and physical infrastructure to 
enhance safety and mission success, which will help maintain 
and build our national competence in these areas, an important 
factor in motivating future generations to do the hard work 
required to continue to carry that leadership banner.
    This effort will require close cooperation with NASA in 
developing full understanding and implementation of the 
appropriate human-rating standards, especially at the system 
level, as has been mentioned previously on the panel, and a 
robust, reliable, true escape system.
    Once we have developed, tested, and certified our 
transportation service, I would be happy to volunteer to strap 
in once again for a mission to ISS. If I am not willing to join 
the first mission of an Orbital-developed spacecraft that I 
share responsibility for, then no one should be on that flight.
    I mentioned that to my boss, and, in that same vein, our 
CEO, Dave Thompson, made it very clear to me yesterday, that if 
I'm going, he is too.
    [Laughter.]
    Mr. Culbertson. He just doesn't want to go without a pilot.
    [Laughter.]
    Mr. Culbertson. It's difficult to envision commercially-
provided crew services being conducted entirely by industry 
with a hands-off approach from NASA, which is currently being 
debated. Nor can these commercial services be provided 
efficiently with traditional levels of government involvement 
and oversight at every turn. Rather, to be successful, 
commercial suppliers must work closely with NASA and other 
potential customers at key milestones and reviews, providing 
insight to the program and demonstrating the willingness to 
listen to the technical judgment and leadership of NASA's 
seasoned government-contractor human spaceflight team, much as 
we now do on the COTS program.
    In addition, the FAA relationship must continue to grow and 
mature in order to establish a proper regulatory regime for 
commercial crew activities. Indemnification, insurance, and 
liability are all key elements in determining how we go 
forward. This is serious business, and the appropriate balance 
of insight and oversight are mandatory, as are open, 
transparent communications with the customer.
    Just as the Shuttle MIR program was preparation for 
producing the collaboration and joint operations being used so 
successfully in the ISS program, COTS is providing superb 
learning experiences, not only for developing new hardware that 
can fly to the Station safely, but also the operations 
concepts, the relationships, and the lines of communication 
that will enable all sorts of commercial endeavors in the 
future. The challenge is to develop and operate commercial low-
Earth Orbit transportation systems that will service not only 
the U.S. Government, but also the other markets that can be 
imagined.
    Since 2008, Orbital has been fully-engaged as one of the 
two companies to provide delivery of cargo to ISS. We have made 
steady and valuable progress in that short time. We expect to 
have achieved all but three of 21 NASA program milestones by 
the end of this year, including successful completion of the 
critical Phase One and Phase Two safety review milestones.
    The first launch of our Taurus II rocket from Launch Pad 0-
A at the Mid Atlantic Regional Spaceport on Wallops Island, 
Virginia, will occur next year. This progress is aided by the 
hard work and cooperation of many talented people at NASA 
headquarters at several NASA centers, as well as the FAA, the 
support of Virginia and Maryland, through Mid Atlantic Regional 
Spaceport Authority, the efforts of our teammates, suppliers, 
international providers, and the internal corporate support we 
receive to resource this program. Please note the addition of 
State and local agencies and organizations in their new roles 
and levels of investment, a key ingredient in achieving 
commercial goals.
    Extension of the International Space Station is one of the 
cornerstones of a sound future in space, both scientifically 
and commercially, as we strive for more distant destinations 
and new technologies continue to be developed.
    Based on my personal experience onboard the Station, I 
firmly believe that the ISS is an ideal platform for 
development and simulation of the operations, technologies, and 
techniques to execute more ambitious and lengthy missions to 
the Moon, Mars, and other destinations. While onboard, I often 
imagined what it would be like to take that station and fly it 
to Mars or place it on the surface of the Moon. What else would 
I need beside what I had? In addition to a regenerative life 
support system and better radiation, I needed a reliable supply 
line or else a heck of a lot more room. But, we have to have 
the support of our commercial industry in order to keep that 
station going.
    We can simulate missions to Mars, simulate missions to the 
Moon, and evaluate the technologies that are going to be 
developed to allow us to go further on that station. Extending 
it to 2020 is the right thing to do, and we support it fully.
    In closing, please allow me to mention that, as an 
astronaut and a manager, I've had the privilege of working on a 
variety of missions which generated vigorous debate as to their 
advisability and even their safety. But, in the end, the right 
decisions were made to enhance our national security, extend 
international cooperation in space science, and increase the 
capabilities of the International Space Station.
    Clearly, the NASA budget that was recently delivered by the 
Administration has generated a firestorm of discussion that is 
rarely seen on the topic of space exploration. I sincerely feel 
the pain of some who are at the center of the storm, as well as 
those who feel threatened by elements of the budget.
    But, I welcome the fact that, finally, we are having a 
broad and fervent debate on the Nation's future in space. I 
know that a lot of energy is being expended at NASA to provide 
increased specificity of the goals. So, I am hopeful that a 
thoughtful and thorough examination of the available paths 
forward will result in an ambitious, sound set of programs that 
will both maintain our leadership in space exploration and 
inspire and challenge us as a Nation to attack even tougher 
problems.
    Like this hearing, promoting meaningful dialogue within the 
relatively small but passionate group of people who truly 
understand and care about what it actually takes to execute 
what so many take for granted--that is, reliable access to 
space--will help move us in the right direction. And I expect 
the U.S. industry to support these next challenging national 
space endeavors, as it always has, with professionalism, 
excellence, and innovation.
    Our Nation continues to inspire people throughout the world 
with our commitment to freedom, creativity, exploration, and 
commerce. Opening the right doors for industry to participate 
more broadly on a commercial basis will help maintain and 
enhance America's leadership on the space and economic 
frontiers.
    Thank you again for inviting me to appear before this 
panel, and I'd be happy to answer any questions.
    [The prepared statement of Mr. Culbertson follows:]

 Prepared Statement of Frank L. Culbertson, Jr. (Captain, USN, Ret.), 
  Senior Vice President and Deputy General Manager, Orbital Sciences 
                  Corporation, Advanced Programs Group
    Good afternoon Chairman Nelson and Ranking Member Vitter, and 
members of the Subcommittee. I appreciate this opportunity to 
participate in this hearing regarding the potential of commercial crew 
delivery capabilities to low Earth orbit to enhance our Nation's 
progress in space exploration and development.
    I am honored to sit on this distinguished panel with industry 
colleagues Michael Gass and Gwynne Shotwell, and former NASA colleagues 
George Nield, now with the FAA, and Malcolm Peterson, formerly NASA's 
comptroller. Needless to say, it is also an honor to sit alongside two 
fellow astronauts whom I hold in the highest regard: Lt. General Thomas 
Stafford, who commanded the vital Apollo 10 lunar landing dress 
rehearsal mission and 35 years ago blazed a trail for U.S.-Russian 
cooperation in space while commanding the American side of the Apollo-
Soyuz mission, and Bryan O'Connor, a veteran of two Space Shuttle 
missions and since 2002 the NASA leader and agency conscience on all 
matters regarding mission safety.
    For those of us who have had the great privilege to fly into space 
wearing the U.S. flag on our space suit--including the chairman of this 
subcommittee--I think it is fair to say that we are oriented toward 
achieving mission success through thoughtful risk taking. Every time I 
have entered the Space Shuttle preparing for flight it was with the 
utmost confidence that the dedicated men and women of NASA and its 
contractor teams had done everything humanly possible to ensure my 
safety, and I'm certain my colleagues share this view about their 
experiences.
    My job at Orbital Sciences Corporation includes oversight of all 
programs relating to Human Space Flight Systems, including not only our 
Cargo Resupply Services contract and the Cygnus Spacecraft, with a 
close connection to our Taurus II Launch Vehicle, but also the 
development of the Orion Launch Abort System under the auspices of the 
Constellation Program. In addition to our 28 years of work in other 
areas of spaceflight, such as satellites and launch vehicles, our 
company is totally committed to supporting the future of human 
spaceflight in this country, as well as to exploring business 
approaches that will continue to make space more accessible and 
productive for all potential users.
    The recent CCDev procurement competition, with 36 bidders listed, 
indicates that a number of U.S. companies, large and small, with 
outstanding track records of providing NASA with launch and space 
services have an interest in supporting commercially provided crew 
transportation services.
    NASA's proposed funding of about $6 billion over the next 5 years, 
together with the addition of appropriate private capital, should be 
sufficient to enable at least one and probably two U.S. commercially-
provided crew systems to be demonstrated by the year 2015.
    I am confident that NASA can work with commercial providers to 
establish the proper safety and performance standards and oversight 
measures, the fundamentals of which are already well-established, that 
will enable industry to continue this successful era of U.S. human 
spaceflight for both U.S. Government missions, and for other markets as 
they develop. I would also expect that industry will make proper use of 
NASA's manpower, expertise, and physical infrastructure to not only 
enhance safety and mission success, but also to help maintain and build 
our national competence in these areas. Preeminence in exploratory and 
technical accomplishments remains as important as ever if we are to 
maintain our global leadership in space and continue to motivate future 
generations to do the hard work required to carry that banner.
    Given your appropriate concern as to whether the commercial space 
industry is robust enough to develop reliable commercial launch 
services for crew to low Earth orbit within a reasonable time, at a 
fair cost, and, most importantly, with the requisite safety margins, 
let me clearly state again my response to the fundamental question of 
whether this model can work. Orbital believes, as do I, that U.S. 
industry, given the right conditions, relationships, and investments, 
should be able to develop and demonstrate safe and reliable crew 
transportation systems for International Space Station support by 2015.
    Two of the important elements of ensuring safety in future 
transportation systems are close cooperation with NASA in developing a 
clear understanding and full implementation of Human Rating Standards, 
especially at the system level, and a robust, reliable crew escape 
system. Furthermore, once such a service is developed, tested, and 
certified, I would be happy to volunteer to strap in once again for a 
mission to the International Space Station. If I am not willing to join 
the first mission of an Orbital developed spacecraft that I share 
responsibility for, then no one should be on that flight.
    I would also like to emphasize the importance of partnership to the 
success of a commercial crew transportation program. For programs of 
this nature to work, especially in the NASA context, what's required is 
a sound, trusting relationship between--and open, honest communication 
amongst--the appropriate government, industry, and international 
partners. This is not a simple or easy task, as evidenced by the major 
space programs of the last 50 years, but it can be done and results in 
powerful accomplishments, such as Apollo, Shuttle, and the 
International Space Station.
    I do not envisage commercially provided crew services being 
conducted entirely by industry with a hands-off approach from NASA. Nor 
can these commercial services be provided efficiently with traditional 
levels of government involvement and oversight at every turn. Rather, 
to be successful, commercial suppliers must work closely with NASA and 
other potential customers at key milestones, tests, and reviews, 
providing insight to the program and demonstrating the willingness to 
listen to the technical judgment and leadership of NASA's seasoned 
government and contractor human spaceflight team in a mutually 
productive relationship. In addition, the FAA relationship must 
continue to grow and mature in order to establish a proper regulatory 
regime for commercial crew activities. In this serious business there 
is no substitute for open lines of communication and the appropriate 
balance of insight and oversight that will lead to shared progress in 
21st century space activities.
    Just as the Shuttle-Mir Program was an excellent developmental 
program for producing the collaboration and joint operations being used 
so successfully in the International Space Station Program, the 
Commercial Orbital Transportation program and related Commercial 
Resupply Services program or COTS/CRS, are providing superb learning 
experiences for not only developing new hardware that can fly to the 
Station safely, but also the operations concepts, relationships, and 
lines of communication that will enable all sorts of commercial 
endeavors in the future.
    Though the willingness of industry to invest their own technical 
and financial resources in an incipient space project is not new, just 
as Orbital is now doing on the COTS/CRS programs, the levels of 
investment and financial risks are moving in new directions. We see the 
opportunity for commercially provided crew transportation as an 
extension and strengthening of NASA's current initiatives in commercial 
cargo delivery that will lead to exciting new partnerships with private 
industry. The challenge is to develop and operate commercial low Earth 
orbit transportation systems that will service not only the government 
but also the other markets that can be imagined.
    Since 2008 Orbital has been fully engaged as one of two companies 
contracted to provide the delivery of crew and cargo to the 
International Space Station. Although this has been a huge development 
program for a company of our size, and unprecedented in scope for a 
purely commercial venture between a private company and NASA, I am very 
pleased to report that from Orbital's perspective, and that of our 
shareholders, we have made steady and valuable progress. We expect to 
have achieved all but 3 of 21 NASA program milestones by the end of 
this year, including successful completion of the critical Phase One 
and Phase Two Safety Review milestones. We are on pace for first launch 
of the Taurus II rocket from Launch Pad O-A at the Mid-Atlantic 
Regional Spaceport on Wallops Island, Virginia, next year. This 
progress is possible because of the hard work and cooperation of many 
talented people at NASA Headquarters and several NASA centers, as well 
as the FAA, the support of Virginia and Maryland through the Mid-
Atlantic Regional Spaceport Authority, the efforts of our teammates, 
suppliers, and international providers, and the internal corporate 
support we receive to resource this program.
    I mention all of those players to highlight the point that it truly 
takes a complex mix of organizations to execute space missions, 
especially with crew involved. The mix and complexity have evolved over 
the last five decades, but this is still one of the most difficult and 
exciting endeavors known to humans, and I believe will be for some time 
to come. The addition of local and state agencies and organizations in 
new roles and levels of investment will only serve to enhance 
commercial opportunities for success. Executing parts of the 
development and operation in new and imaginative ways, while keeping 
the focus on safety and mission success, is our challenge for the near 
term, so that we not only expand our frontiers, but also give our 
children a space program that they can build upon--not be forced to 
rebuild.
    For Orbital, we see the extension of the International Space 
Station as one of the cornerstones for a sound future in space, both 
scientifically and commercially, as we strive for more distant 
destinations and new technologies continue to be developed. Looking 
forward, we believe the ability to provide cargo and crew services to 
the International Space Station is absolutely critical given the 
pending retirement of the Space Shuttle and the Administration's wise 
decision to continue the International Space Station's mission from 
2015 to 2020 (or beyond!), thus enabling our scientists and researchers 
to pursue a more aggressive program of scientific research and 
utilization at this multi-national orbital facility. I applaud its 
designation as a National Laboratory. In addition, based on my personal 
experience on board the Station, I firmly believe that the ISS is an 
ideal platform for developing and simulating the operations, 
technologies, and techniques for executing more ambitious missions and 
lengthy missions to the Moon, Mars, and other destinations.
    I often tried to imagine what we would need if the station were en 
route to Mars or were somehow placed on the moon, besides what we 
already had or expected to have in the future--such as regenerative 
life support and radiation protection--and one of the major 
requirements was a reliable supply line--and/or a lot more room! We at 
Orbital intend to be a key element in that supply line. It is indeed 
important to recognize that this new approach to meeting our Nation's 
commitment to fully utilize the International Space Station, including 
the designated National Laboratory portion of the facility, is part of 
a broader policy to advance American progress in space on a number of 
productive fronts.
    By now turning anew to America's innovative private sector to 
provide crew transport to low Earth orbit, NASA will be able to invest 
new resources in transformative technologies that will speed our 
exploration path to the Moon, Mars, asteroids and other deep-space 
destinations. New launch vehicle propulsion, in-space operations 
technologies and related robotic precursor missions are just a few of 
these. This approach will also enable increased funding for NASA's 
other critical missions in earth and space sciences, thus helping us 
better protect life on our home planet through accelerated and expanded 
climate change research missions, and extend through our robotic 
emissaries and telescopes the profound search for evidence of life in 
and outside the solar system.
    In closing, please allow me to mention that as an astronaut I have 
had the privilege of working on missions that have helped to enhance 
our national security, extend international cooperation in space 
science, and increase the capabilities of the International Space 
Station facility, which has just been given a new lease on life. 
Clearly, the NASA budget that was recently delivered by the 
Administration has generated a firestorm of discussion that is rarely 
seen on the topic of space exploration. I sincerely feel the pain of 
some who are at the center of the storm, as well as those who feel 
threatened by parts of the budget, but I welcome the fact that finally 
we are having a broad and fervent debate on the subject. I know that a 
lot of energy is being expended at NASA to provide increased 
specificity of the goals, so I am hopeful that a more thoughtful and 
thorough examination of the available paths forward will result in an 
ambitious, sound set of programs that will fill us all with pride. Just 
as you are doing by holding this hearing, promoting meaningful dialogue 
within the relatively small but passionate group of people who truly 
understand and care about what it actually takes to execute what so 
many take for granted--that is, reliable access to space--will help 
move us in the right direction. I expect that U.S. industry will 
support challenging national space endeavors as it always has--with 
professionalism, excellence, and innovation.
    Our Nation continues to inspire people throughout the world for our 
commitment to freedom, creativity, exploration, and commerce. Opening 
the right doors for industry to participate more broadly on a 
commercial basis will help maintain and enhance America's leadership on 
the space frontier.
    Thank you again for inviting me to appear before this important 
hearing today.

    Senator Nelson. Thank you, Mr. Culbertson.
    Ms. Gwynn Shotwell is President of SpaceX, and she will 
discuss SpaceX's progress and obstacles in developing crew 
capabilities.

        STATEMENT OF GWYNNE SHOTWELL, PRESIDENT, SpaceX

    Ms. Shotwell. Chairman Nelson, Senator Hutchison, on behalf 
of the 1,000--nearly 1,000 employees at SpaceX, I'm honored to 
be here to address the questions that you've provided.
    It's probably no secret that SpaceX is fully supportive of 
the NASA budget and plans for commercial crew and cargo, and 
we're grateful for the support that this committee has provided 
to date.
    As a fast-growing entrepreneurial U.S. launch-services 
provider that competes daily for both domestic and 
international business, having the support of Congress and the 
U.S. Government is vital to our success. Of the over 30-plus 
space launches we have currently on our manifest, NASA 
represents just under half of those. And so, they're a critical 
customer.
    I'm pleased to be here today to discuss the proposed fiscal 
2011 budget, and specifically their proposal to use commercial 
launch-service providers to bring crew and cargo to the 
International Space Station. Although this has been a matter of 
policy and law since 2004, we recognize that some still 
question whether the commercial space industry is up for this 
challenge, even with the significant support provided for in 
the budget. Accordingly, I want to answer three questions 
today, initially. First, can SpaceX develop a capability to 
deliver crew to the ISS? And, if so, when? Second, can SpaceX 
perform crew missions regularly and safely? And third, is a 
commercial crew program critical for the United States to 
explore other destinations in the solar system, such as Mars? 
The simple answer to each of these questions is, ``yes,'' and 
I'll follow up with a few detailed remarks.
    Regarding timing, SpaceX firmly believes that we can get 
astronauts to the International Space Station within 3 years of 
contract award, largely based on the fact that our Dragon 
capsule was designed, from the inception, to carry crew, with 
minor uprating from our cargo vehicle.
    Since the company was founded in 2002, we have designed, 
developed, and successfully launched the first privately-
financed liquid-fuel rocket, and we've gotten that vehicle to 
orbit twice in a row. Under the COTS program, we are on track 
to demonstrate cargo capability to the ISS within less than a 
year. This demonstration will then be followed by 12 commercial 
cargo resupply missions to the ISS. Although our Falcon 9 
launch vehicle and Dragon spacecraft have been contracted to 
carry cargo currently, we certainly have an existing option 
under the COTS program to carry crew, as well.
    Given that, as I mentioned earlier, both the Falcon 9 
launch vehicle and the Dragon capsule have been designed, since 
inception, to carry--to accommodate crew. In fact, because our 
spacecraft must approach and berth with the ISS, many of the 
crew-rating criteria will have already been verified on Dragon 
before we get to the ISS. We are, therefore, confident that we 
can complete all necessary enhancements for Dragon, demonstrate 
Falcon 9's reliability, and be ready to fly astronauts to the 
Station within 3 years.
    Regarding safety, SpaceX plans to fully comply with any and 
all safety standards set by NASA under the U.S. Government. We 
believe the notion that NASA would place astronauts on an 
unproven commercial rocket is simply and unrealistic concern. 
Falcon 9 and Dragon will fly numerous cargo and operational 
flights to the ISS before ever carrying crew. SpaceX has 
contracted over 24 Falcon 9 flights, some of which are Dragon 
flights, as well, and we're adding new missions to the manifest 
by the end of the month, actually.
    If development problems ever arise, early in the Falcon 9 
or Dragon Program, those problems have plenty of time to be 
resolved and demonstrate the service reliably.
    Commercial vehicles are inherently reliable, as 
demonstrated by the long, proven heritage of the Atlas and 
Delta programs. There's nothing inherently unreliable about a 
commercial service.
    There has been significant debate over what it means for a 
rocket to be man-rated. NASA is only now establishing 
commercial human-rating requirements. Notwithstanding, SpaceX 
designed the Falcon 9 and Dragon with all the known NASA 
requirements in mind. In fact, SpaceX has gone even further. 
For example, Falcon 9 is the only launch vehicle, foreign or 
domestic, that can survive the loss of any first-stage engine. 
This was a capability that was--that both the Saturn I and 
Saturn V rockets had, and they were used to save astronauts' 
lives.
    Going forward, SpaceX will comply with any NASA-published 
human-rating requirements, and we look forward to engaging with 
the agency on crew-rating our systems. Let me be clear, as 
we've been criticized on this point, SpaceX is not looking for 
a free or easy ride, with respect to meeting NASA-imposed crew-
rating criteria.
    Last, some have criticized NASA's Fiscal Year 2011 
budgetary vision for lacking a destination beyond low-Earth 
orbit. SpaceX firmly believes that using commercial crew and 
cargo services for LEO will free up NASA resources to focus on 
exploring other destinations in the solar system, such as Mars.
    By engaging the commercial sector now, NASA will be 
developing procurement processes and techniques that will help 
enable the government to cost-effectively manage future 
exploration efforts. Specifically, if NASA relies on commercial 
companies like those represented here today, much the same way 
that the defense and national security community relies on us 
to protect the payloads and precious homeland and troops 
overseas, NASA can focus its great mind and limited financial 
resources on what NASA has always done best, pushing the 
frontier and exploring worlds beyond.
    Mr. Chairman, the nearly 1,000 men and women of SpaceX 
appreciate your time and your attention to this matter. I'm 
happy to answer any questions.
    [The prepared statement of Ms. Shotwell follows:]

        Prepared Statement of Gwynne Shotwell, President, SpaceX
    Mr. Chairman and members of the Subcommittee, on behalf of the 
nearly one thousand employees of Space Exploration Technologies 
(SpaceX) located in Florida, California, Texas, and elsewhere in the 
United States, I thank you for the opportunity to appear before you 
today.
    SpaceX was founded by Elon Musk in 2002 because he had the 
foresight and firsthand knowledge of how the United States was falling 
behind in terms of affordable access to space. As Mike Griffin pointed 
out to Congress in 2003, ``we desperately need much more cost effective 
Earth-to-LEO [low-Earth Orbit] transportation for payloads in the size 
range from a few thousand to a few tens of thousands of pounds. In my 
judgment, this is our most pressing need, for it controls a major 
portion of the cost of everything else that we do in space. Yet, no 
active U.S. government program of which I am aware has this as its 
goal.''
    When the Bush Administration released its Vision for Exploration in 
2004, the decision was made to complete the International Space Station 
(ISS), retire the Space Shuttle in 2010, and acquire crew and cargo 
services to the ISS commercially and from our international partners. 
In order to ensure that NASA's resources would be focused on space 
transportation capabilities for exploration of the Moon and Mars, the 
policy explicitly stated that supporting the ISS would be ``separated 
to the maximum practical extent'' from exploration missions beyond low-
Earth orbit (LEO). The policy of acquiring commercial crew and cargo 
services to the ISS has been reaffirmed consistently by NASA, in 
numerous authorization bills, and Presidential national security 
directives.
    It is important for the Committee to note that even had all of the 
ambitious goals of the 2004 Vision for Space Exploration been met, this 
country has long been on a path to dependence on the Russians--that is, 
if and until commercial LEO services become available. Moreover, it is 
a matter of policy and law that the Constellation system of Ares/Orion 
be developed and optimized (from a technical and operational 
perspective) for returning to the Moon and beyond, not for supporting 
the ISS. Falcon 9/Dragon, on the other hand, has been designed and 
optimized to replace the Russian Soyuz system with an improved U.S. 
capability, and therefore is much less complex and significantly less 
expensive than Ares/Orion.
    SpaceX is grateful for all the support this Committee has provided 
for commercial crew and cargo services to date. As a fast-growing, 
entrepreneurial, U.S. provider of launch services competing daily for 
both domestic and international business, having the support of 
Congress and the U.S. government is vital to our success. This is a 
difficult business and we have come a long way in an unprecedented 
period of time. One of our key customers, of course, is NASA. I am 
pleased to discuss the new direction that NASA has opted to take in the 
proposed FY 2011 budget, specifically with respect to the agency's 
plans to rely upon ``commercial'' launch providers to develop crew 
delivery capabilities to LEO.
    I understand the skepticism that the commercial space industry can 
succeed at manned carriage to the ISS within a reasonable timeframe, 
even with the significant support from NASA and financial investment 
proposed in the budget. I also understand that there are concerns about 
the safety of commercial vehicles. Today, I will comment broadly on 
these issues, with a particular focus on SpaceX's capabilities, 
timelines, budget, and approach to safety. To begin, however, I have 
two answers to questions posed by this Committee--first, in response to 
inquiries about the timing of commercial manned carriage, I can tell 
you that SpaceX firmly believes that we can be ready to fly astronauts 
to the ISS within 3 years after contract award. In response to 
questions about safety, I can tell you that SpaceX intends to be fully 
compliant with any and all safety standards set by NASA and the U.S. 
Government.
``Commercial Space'' Continues to be the Best Approach for Servicing 
        the ISS
    As a threshold matter, it is worthwhile to discuss what it means to 
provide ``commercial'' services to NASA for cargo or crew carriage. 
This can be a confusing term inasmuch as NASA and other U.S. Government 
agencies rely upon the private sector for launch and other space-
related service. Why are those providers not considered ``commercial''?
    Importantly, this is not new ground being plowed. The National 
Space Transportation Policy and various Federal statutes speak to the 
national imperative to develop and rely upon a commercial space sector. 
In fact, as early as 1991, the ``US Commercial Space Policy 
Guidelines'' (NSPD-3) were adopted, which stated in relevant part:

        ``A robust commercial space sector has the potential to 
        generate new technologies, products, markets, jobs and other 
        economic benefits for the nation, as well as indirect benefits 
        for national security. Commercial space sector activities are 
        characterized by the provision of products and services such 
        that: private capital is at risk; there are existing, or 
        potential, nongovernmental customers for the activity; the 
        commercial market ultimately determines the viability of the 
        activity; and primary responsibility and management initiative 
        for the activity resides with the private sector.''

    In the context of the newly proposed NASA budget, there is a 
distinction made between past and future plans focused on 
``commercial'' providers--this distinction would appear to turn on the 
factors above, as well as the nature of the contracting mechanism. 
Specifically, ``commercial contracts'' are firm, fixed-price contracts 
that require a provider to name a price and stick to it. Additionally, 
payments are not made until the milestone associated with that payment 
is demonstrated as complete. This is hardly a novel concept, but in the 
space world, it has become an outlier.
    Commercial also necessarily means a singular devotion to safety and 
reliability for manned spaceflight because, by the nature of the 
business, providers must compete primarily on that dimension. As is 
true with respect to commercial aviation, businesses will fail unless 
safety and reliability come first, regardless of price point. The need 
for a laser-like focus on safety and reliability becomes even more 
acute when commercial space companies put their own financial skin in 
the game, offer services on a firm-fixed price basis against competing 
bidders (rather than cost-plus, ``no-lose'' contracts), and get paid in 
full only if they perform.
    There are those who argue that it is unacceptable to rely upon 
``unproven'' commercial rockets for manned carriage. This begs the 
question: should the Ares 1 be considered ``mature'' or ``proven'' by 
comparison? To date, there has been one test flight of the Ares 1-X (a 
four-segment solid rocket booster stage, with a fifth segment mass 
simulator, and an upper stage simulator) and America has invested over 
$8 billion in Constellation. That ratio of progress to expenditure is 
not particularly compelling given budget realities facing NASA and the 
country as a whole. And the Augustine Commission agrees that, unless 
NASA's budget increases dramatically, to continue along this path would 
be ``unsustainable.''
    The notion that ``unproven commercial rockets'' would carry 
astronauts is an unrealistic concern by the critics of the new NASA 
approach. Critically, there will be many cargo test and operational 
flights of the Falcon 9 and Dragon before any crew flights. In 
addition, the demand for Falcon 9 to deliver satellites is high--at 
this time, there are 24 total Falcon 9 flights on the manifest. Of 
interest is that there are 10 of our Merlin engines on each Falcon 9. 
This provides a factor of ten demonstration of engine performance and 
life with every flight. I know of no other launch system that can cite 
this acceleration of life demonstration of its propulsion system. This 
is of great benefit to the crew program as it will leverage this 
accelerated spaceflight heritage.
    Nonetheless, if development problems arise, there are sufficient 
flights to provide the opportunity to resolve any issues well in 
advance of astronaut transport, which stands in stark contrast to the 
plan for Ares 1. Separately, the Atlas and Delta vehicles, with their 
long-proven heritage, would actually appear to be in the front-running 
for manned missions. My colleagues from the United Launch Alliance will 
address that proposition.
    Safe and reliable domestic commercial transport of cargo, 
spacecraft, and astronauts to low-Earth orbit (LEO) will save U.S. 
taxpayers significant money that can be put toward what NASA does 
best--pushing the frontier and exploring beyond LEO. The work must 
begin now, however, if the U.S. means to reduce Russian reliance at the 
current cost of $51 million per astronaut (and going up, it would 
appear based on recent comments by Mr. Perminov). Achieving a timely 
return to LEO after Shuttle retirement using domestic providers of 
launch services would incubate a commercial space market and enable 
NASA to move forward with technologies that take us beyond low-Earth 
orbit.
The Proposed NASA Budget
    The President's FY 2011 budget request includes a much needed 
increase to the agency's top-line over the next 5 years and includes 
many laudable aspects such as increased investments in earth science 
and aeronautics, an extension and increased utilization of the 
International Space Station (ISS), and sustained research and 
development in potentially transformative technologies that should help 
alleviate the impact of job losses due to the successful conclusion of 
the Space Shuttle program and build the foundation for 21st Century 
solar system exploration. The budget request for exploration systems is 
$4.3 billion, which is up from $3.8 billion in FY 2010.
    As you are aware, the Augustine Commission reviewed NASA's plans 
and budget and determined, among other things, that the previous plan 
was unsustainable absent a multi-billion dollar increase in the NASA 
budget going forward and that significant multi-year delays were 
inevitable. Assuming that there is not going to be a large and 
sustained increase in the NASA budget, then alternatives must be 
considered. Solving the LEO transportation problem with a reliable, 
cost-effective, domestic solution is critical to allowing the United 
States to devote resources that enable NASA to move forward with 
technologies that take us beyond low-Earth orbit.
    A key fiscal fact that appears to be lost by most detractors of the 
NASA budget plans is that, unless there is a massive influx of funding, 
you cannot both fund Constellation and extend the life of the ISS 
beyond 2015. The ISS is an asset for which the United States has risked 
much. Even according to the most conservative estimates, the U.S. alone 
has spent upwards of $27 billion on the ISS (without factoring in any 
Space Shuttle-related costs). There appears to be universal support for 
extending its lifetime. Given this, and given the Augustine 
Commission's findings, it makes logical sense to pursue commercial 
alternatives for manned spaceflight capable of safely, reliably, and 
cost-efficiently carrying crew to the ISS.
SpaceX Progress to Date
    SpaceX was founded just over 7 years ago, with the overriding goal 
of increasing the reliability of access to space and ultimately the 
transport of crew. SpaceX has executed at an unprecedented pace of 
development and success with over 30 missions on its current manifest, 
over $2 billion in contracts, and a customer base that spans the civil, 
commercial, government and international markets.
    SpaceX and NASA have a strong, enduring working relationship and 
history, which began in late 2005 when then Administrator Griffin 
established the Commercial Crew/Cargo Project, later renamed the 
Commercial Orbital Transportation Services (COTS) program. The 
competitively awarded program was established to ``stimulate commercial 
enterprise in space with opportunities for American entrepreneurs to 
provide innovative, cost effective access to low-Earth orbit.'' At the 
time of the announcement, and reaffirmed in numerous Presidential 
policies and laws, ``CEV variants [later renamed Orion] for ISS or 
additional International Partner capabilities are backup 
alternatives.''
    To date, SpaceX has completed 16 of 22 COTS milestones and the 
inaugural Falcon 9 launch vehicle is currently at SpaceX's launch 
complex 40 at the Cape Canaveral Air Force Station (CCAFS), where last 
weekend we successfully completed a full systems test, including 
booster ignition of the flight first stage. The completion of a 
successful static fire is the latest milestone on the path to first 
flight of the Falcon 9 which will carry a Dragon spacecraft 
qualification unit to orbit.
    In reviewing the COTS program at Congress' request, the often 
critical Government Accountability Office (GAO) ``found NASA's 
management of the COTS project has generally adhered to critical 
project management tools and activities and the vast majority of 
project expenditures were for milestone payments to COTS partners.'' 
Building on the productive working relationship established through the 
course of the COTS program, SpaceX has subsequently been competitively 
awarded 12 Commercial Resupply Service (CRS) cargo missions to the ISS 
and been on-ramped to the NASA Launch Services (NLS) catalog. Below is 
a copy of SpaceX's current manifest:

                         SpaceX Launch Manifest
------------------------------------------------------------------------
          Customer           Target Date*     Vehicle      Launch Site
------------------------------------------------------------------------
Falcon 9 Inaugural Flight    2010          Falcon 9      Cape Canaveral
NASA COTS--Demo 1            2010          F9/Dragon     Cape Canaveral
NASA COTS--Demo 2            2010          F9/Dragon     Cape Canaveral
NASA COTS--Demo 3            2011          F9/Dragon     Cape Canaveral
Falcon 1e Inaugural Flight   2011          Falcon 1e     Kwajalein
ORBCOMM                      2011-2014     Falcon 1e     Kwajalein
MDA Corp. (Canada)           2011          Falcon 9      Cape Canaveral
NASA Resupply to ISS--       2011          F9/Dragon     Cape Canaveral
 Flight 1
NASA Resupply to ISS--Flt 2  2011          F9/Dragon     Cape Canaveral
DragonLab Mission 1          2012          F9/Dragon     Cape Canaveral
NASA Resupply to ISS--Flt 3  2012          F9/Dragon     Cape Canaveral
NASA Resupply to ISS--Flt 4  2012          F9/Dragon     Cape Canaveral
CONAE (Argentina)            2012          Falcon 9      Vandenberg**
Spacecom (Israel)            2012          Falcon 9      Cape
                                                          Canaveral**
Space Systems/Loral (SS/L)   2012          Falcon 9      Cape Canaveral
DragonLab Mission 2          2013          F9/Dragon     Cape Canaveral
NASA Resupply to ISS--Flt 5  2013          F9/Dragon     Cape Canaveral
NASA Resupply to ISS--Flt 6  2013          F9/Dragon     Cape Canaveral
NASA Resupply to ISS--Flt 7  2013          F9/Dragon     Cape Canaveral
CONAE (Argentina)            2013          Falcon 9      Vandenberg**
NASA Resupply to ISS--Flt 8  2014          F9/Dragon     Cape Canaveral
NASA Resupply to ISS--Flt 9  2014          F9/Dragon     Cape Canaveral
NASA Resupply to ISS--Flt    2014          F9/Dragon     Cape Canaveral
 10
Astrium (Europe)             2014          Falcon 1e     Kwajalein
Bigelow Aerospace            2014          Falcon 9      Cape Canaveral
NASA Resupply to ISS--Flt    2015          F9/Dragon     Cape Canaveral
 11
NASA Resupply to ISS--Flt    2015          F9/Dragon     Cape Canaveral
 12
------------------------------------------------------------------------
* Target date indicates hardware arrival at launch site.
** Or Kwajalein, depending on range availability.

    The SpaceX benchmark objective is to increase the reliability and 
substantially reduce the cost to access space--ultimately by a factor 
of ten. To that end, SpaceX is developing a family of low-cost launch 
vehicles, the ``Falcon'' line. SpaceX is currently the only U.S. 
company dedicated exclusively to developing and providing end-to-end 
space transportation solutions, let alone ones with improvements in 
both cost and reliability. This focus and our devotion to minimizing 
critical external dependencies are key to cutting the Gordian knot that 
thus far has inhibited genuine commercialization of launch services.
    SpaceX's unique approach of manufacturing a vast majority of the 
vehicle in-house in addition to integrating and providing launch 
services is changing the industry paradigm. SpaceX's Falcon 9/Dragon 
system offers a one-hundred percent American-made transportation 
solution. With nearly one thousand full-time personnel, SpaceX 
possesses deep expertise in propulsion, structures, avionics, safety, 
quality assurance, mission operations, launch, mission management and 
systems integration. Headquartered in Hawthorne, California, SpaceX 
also operates a state-of-the art test facility in Texas, the Falcon 1 
launch facility in Kwajalein, the Falcon 9 launch facility in Florida, 
and an office in Washington, DC.
    SpaceX has developed the capability to manufacture the majority of 
its launch vehicle and spacecraft in-house and is not dependent upon a 
single source for any key technology. This provides SpaceX with control 
(for price as well as quality and supply) over all key elements--from 
component manufacturing through launch operations. It also allows 
SpaceX designers to work directly with manufacturing located just steps 
away, streamlining the development process.
    As evidence of the viability of this commercial model, in just over 
7 years, SpaceX has:

  <bullet> Developed, built, tested and successfully launched the 
        Falcon 1, which included ``clean sheet'' development of all 
        propulsion, structures and avionics, fully qualifying the 
        vehicle, ground and launch support systems, and certifying a 
        Flight Termination System with a Federal Range. The fourth and 
        fifth flights of Falcon 1 demonstrated repeatable success in 
        placing payloads into intended orbits;

  <bullet> Developed, built and activated (with range approval) two 
        launch sites, including all regulatory approvals and 
        coordination. It is worthy to note that the Kwajalein facility 
        was designed, built and activated in less than 10 months. 
        SpaceX has completed Space Launch Complex 40 at Cape Canaveral 
        in Florida in preparation for the maiden Falcon 9 launch;

  <bullet> Developed the major Falcon 9 subsystems to a point such that 
        the vehicle currently sits on the pad at LC-40 in Cape 
        Canaveral, with the maiden launch of the Falcon 9 to occur in 
        the coming weeks;

  <bullet> Completed 16 of 22 performance milestones for NASA's COTS 
        project with the first demonstration mission scheduled for 
        2010; and

  <bullet> Competed and won 12 operational missions to resupply cargo 
        to the ISS and completed five reviews toward two of these 
        missions.
The Falcon 9/Dragon System was Developed to Support Crew Delivery from 
        Day One
    SpaceX is on-track to simulate delivery of cargo to the 
International Space Station (ISS) within a year, and return cargo to 
Earth. This will be followed in mid 2011 by the first of 12 commercial 
cargo delivery missions to ISS under the Commercial Resupply Services 
(CRS) contract. Although the SpaceX Falcon 9 launch vehicle and Dragon 
spacecraft are initially contracted to carry only cargo, they have been 
designed since inception to be crew-capable with minimal augmentation. 
This is a logical and incremental extension of cargo transportation 
capabilities, especially when the cargo system includes down-cargo 
capability (i.e., return of payload to Earth).
    Many functions and requirements for crew transportation are levied 
on the cargo vehicles by virtue of the fact that they must approach 
(and berth with) the ISS. Safety concerns for ISS crew, and prudent 
stewardship of the ISS itself, mandate that factors of safety, fault 
tolerance, air circulation, touch temperatures, sharp edges and many 
other ``human rating'' requirements be imposed on the cargo transfer 
vehicles. Accommodating crew involves up-rating of certain subsystems, 
adding crew monitoring and over-rides, and a launch escape system in 
case of booster failure during ascent.
    SpaceX has been working closely with NASA through the Commercial 
Cargo and Crew Office (C3PO) office at JSC from the inception of the 
COTS program 3 years ago. The spacecraft and launch vehicle have 
progressed through Critical Design Review (CDR) for each of the three 
demonstration flights required under the COTS Space Act Agreement 
(SAA). At each milestone, SpaceX's designs and processes are subjected 
to careful, objective review by NASA through C3PO and their COTS 
Advisory Team of technical experts. Independent of this, the ISS 
program's Safety Review Panel (SRP) also review all aspects of the 
design that could affect the safety of the ISS and its crew. Dual-fault 
tolerance against critical hazards is strictly enforced, although no 
significant design changes have been required toZte. SpaceX will 
complete Phase 2 of the 3-phase SRP process this month, with the final 
phase scheduled for completion in late 2010. The SRP is a critical 
signatory to the Certificate of Flight Readiness (CoFR), a prerequisite 
for the final demonstration mission which will berth with the ISS.
    The augmentations required to this system in order to safely fly 
crew are:

  <bullet> Launch Escape System: to provide a means for crew to safely 
        escape from a catastrophic failure on the launch vehicle during 
        ascent. SpaceX has identified the development of a Launch 
        Escape System (LES) as the item requiring the longest lead time 
        and presenting the highest technical risk;

  <bullet> Vehicle Health Monitoring System and Abort Triggers: to 
        continuously monitor the launch system and command the escape 
        system if a failure is detected;

  <bullet> Life Support System: upgrades to the existing Environmental 
        Control System to include carbon-dioxide removal and humidity 
        control;

  <bullet> Crew Accommodations: including seats, pressure suits, and 
        manual control systems;

  <bullet> Gantry Access at Launch Pad: to provide nominal and 
        emergency access for crew.

    The above four items are the key, significant developments to up-
rate the current cargo system to accommodate crew. A docking system 
development may also be required, or this could be provided by the 
government to maintain the broadest cross-compatibility between 
commercial transportation options. SpaceX can complete necessary 
augmentations and will be ready to fly astronauts to the ISS within 3 
years after contract award.
Crew Safety and Human Rating
    There has been significant debate over what it means for a rocket 
to be ``man-rated.'' And I think it's fair to say that this term is a 
bit of a moving target. While NASA currently is compiling human-rating 
requirements to ensure astronaut safety, it has not established a 
certification program whereby candidate commercial vehicles will be 
subjected to a thorough review process focused on assuring crew safety. 
This said, at least with respect to SpaceX, the following facts are 
relevant:
    SpaceX incorporated the existing NASA human rating requirements 
into the Falcon 9 and Dragon designs; (found in NPR 8705.2A--Human-
Rating Requirements for Space Systems) and codified in the SpaceX 
Human-Rating Plan. This plan was presented to NASA for review as part 
of our first Systems Requirements Review Milestone. In May 2008 NASA 
released the current human rating requirements document, NPR 8705.2B, 
which is applicable to ``crewed space systems developed by NASA,'' not 
to commercial systems. In draft form this document had an ``Appendix 
G--Commercially Developed Space Systems'' that discussed ``equivalent 
standards,'' ``equivalent design reviews,'' and participation of NASA 
technical authorities in design and development of new systems, or 
gaining their approval for existing systems. This Appendix was omitted 
from the released version leaving no definition for NASA human rating 
requirements applicable to commercial crew transportation systems.
    Nevertheless, SpaceX continued to design Falcon 9 and Dragon with 
NASA Human-Rating standards contemplated assuming that the requirements 
defined for government systems such as Orion and Ares I would also 
apply to our vehicles. Furthermore, wherever the newer requirements 
were non-specific, SpaceX self-imposed the older (and in many cases 
more stringent) 8705.2A NASA requirements. For example, SpaceX designed 
its structures to meet NASA Standard 5001 Structural Design and Test 
Factors of Safety for Spaceflight Hardware, and SSP 30559 ISS 
Structural Design and Verification Requirements. Consistent with human 
rating standards, Falcon 9 is thereby designed to 1.4 Factor of Safety 
(FS) and Dragon pressurized volume and windows to 2.0 FS. Additionally, 
Dragon Avionics and Propulsion Systems are 2-fault tolerant to 
catastrophic and critical hazards. Finally, Dragon and Falcon 9 are 
designed to support Launch Abort System ascent and reentry loads and 
meet both ISS Visiting Vehicle requirements in SSP 50808 and NPR 
8705.2B section 2.3.7 fault tolerance requirements. In fact, based on 
these requirements and available standards, the Dragon spacecraft is 
not expected to require any hardware modifications to the existing 
primary structure, propulsion, power, Command & Data Handling (C&DH), 
thermal control, thermal protection, communication or Entry, Descent, 
and Landing (EDL) subsystems. Similarly, no hardware changes are 
anticipated for Falcon 9 to comply with the government HRR. Both 
vehicles will require some additional functionality such as those 
listed above; however these capabilities are ``keyed'' into the 
existing design.
    It is critical to note that the Falcon 9 launch vehicle is the ONLY 
launcher (domestic or foreign) with engine-out capability in the first 
stage. This feature was present on the Saturn I and the Saturn V and 
was leveraged to save astronaut lives in both cases.
    Going forward, SpaceX will comply with any NASA-published human-
rating requirements for both Dragon and Falcon 9. SpaceX looks forward 
to engaging with NASA to begin the Human Rating process of both these 
vehicles.
Current Reliance on Russian Vehicles
    Though hardly news to those involved in the U.S. civil and 
commercial space sectors, the following facts will likely come as a 
disturbing surprise to most Americans: first, from 2010 through 2017, 
or longer, the United States will have no human spaceflight capability 
unless commercial services are developed; and second, during this 
timeframe, Russia will wield a monopoly with respect to manned carriage 
to the ISS. So, while the U.S. has toiled to build the ISS--risking 
lives with each Space Shuttle mission and expending significant 
national treasure to construct the orbiting laboratory--we will not be 
able to access the ISS without paying Russia dearly for the privilege. 
While these facts may be new to most Americans, they certainly are not 
lost on the Russians, who, despite being relatively new players in the 
free market economy, are proving to be quite excellent capitalists.
    Russia's mastery of the relationship between supply and demand has 
manifested itself consistently over the past decade, but no more so 
than in 2007, when the United States negotiated to pay $780 million to 
Russia to deliver cargo and 15 crew members to the space station--six 
astronauts in 2009, six in 2010, and three in 2011. After the Shuttle 
is retired, it is not apparent what price Russia may demand for rides 
to the American-built portion of the ISS.
Opportunities for Growth
    Initial government investment, coupled with private funds, has 
spurred the creation of successful new industries. For example, 
industries such as e-commerce, commercial aviation, and entertainment 
were enabled by government investment in the Internet, aviation 
infrastructure, and the satellite industry respectively.
    U.S. Government investment in commercial space companies to create 
a safe, reliable, and cost effective human space transportation 
industry will enable the formation of entire new industries. Immediate 
beneficiaries of government incentives include commercial human space 
transportation providers, their suppliers, and local communities where 
new infrastructure is being developed to support new missions. As the 
human space transportation industry grows, the enterprise will extend 
to markets in scientific research, tourism, education, and exploration. 
With the maturation of systems, new industries will evolve in fields 
such as medicine, material science, energy, and expanded tourism.
    Funds for this proposed commercial crew program will immediately 
create new high-tech jobs. The Commercial Spaceflight Federation 
estimated in 2009 that a $2.5 billion Commercial Crew Program would 
create 5,000 new jobs across the Nation. Indirect and induced job 
creation is typically considered to be approximately four times this 
number in the wider economy. Commercial crew capability for SpaceX 
alone, once realized operationally, is predicted to create thousands of 
additional direct high-skill jobs in Florida, California, and Texas.
    Mr. Chairman, thank you for your support and that of this 
Subcommittee. I would be pleased to respond to any questions you or the 
other members of the Subcommittee may have.

    Senator Nelson. Thank you, Ms. Shotwell.
    Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman.
    I apologize for being late, and I will have to leave after 
I speak. I was glad to hear some of your testimony. I have to 
get back to the floor, because we have the FAA reauthorization 
bill.
    But, I'll just summarize my statement. I think many people 
know that I introduced legislation that would, in fact, try to 
continue Shuttles. I don't see how we can have a goal of 
keeping the Space Station open until 2020 and have a big gap, 
which the Chairman and I have fought together for a long time, 
to not have, in a reliable capability to get crew there. So, I 
would like to continue the Shuttles and am certainly looking 
for a way to achieve that without taking away from any of the 
other commitments that are being made.
    I have, for a long time, supported the commercial orbital 
transportation systems. I do certainly support commercial 
innovation, and I think, in the end, we will have commercial 
capabilities. But, I think this gap is too important to rely on 
just commercial and not continue our capabilities with the 
investment that we have made and the reliability that we have.
    So, I think that, going forward, we need to go on two 
fronts. I think we need to explore the commercial side, and let 
the commercial side come forward and prove the reliability. 
Certainly, Mr. Culbertson, if you and your CEO are willing to 
go up on that first one, that would be a good test. But, I 
don't think we ought to shut down the Shuttle system, and 
particularly--it's not just the system, it's also all of the 
people who are necessary to keep the system safe, secure, with 
all of the requirements that we have for Shuttle. It's not just 
the flight, as all of you know. It is all of the backup that is 
necessary.
    So, I appreciate your holding this hearing. I think it is 
important that we have all the information that we can. But to, 
I think, prematurely stop the Constellation Program and not 
move forward very firmly on keeping the Space Station not only 
open, but usable, within our own capabilities, is not good, 
common sense, and it's certainly not using our taxpayer dollars 
wisely.
    Relying on Russia to fill the gap is equally, in my 
opinion, unreliable and unsupportable. I would rather keep our 
own capabilities, use our own resources for that, and invest in 
the commercial for the future, but only when the commercial is 
completely tested and ready to go.
    So, that's my overview. And I hope, Mr. Chairman, that you 
and I will be able to begin to work on a plan that is both 
supportive of commercial, but also keeping the systems that we 
need in place to assure that America can go into space on its 
own, relying only on ourselves for the future, until we have 
the commercial vehicle or the crew return vehicles in place and 
ready to go.
    So, thank you, Mr. Chairman, and I look forward to hearing 
the further questions that you will ask, as I'm sorry I have to 
go back to the floor.
    Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Mr. Chairman and Ranking Member Vitter, I appreciate your 
Subcommittee holding this very important hearing on commercial space 
capabilities. I join you in welcoming this excellent panel of 
witnesses.
    This is the second hearing regarding the President's Fiscal Year 
2011 NASA Budget proposal. I am very concerned about the direction 
President Obama has proposed for NASA and for human spaceflight.
    If we follow the President's budget proposal, the U.S. will retire 
the Space Shuttle program later this year, just as the International 
Space Station is finally complete, without a viable U.S.-operated 
alternative to transport our astronauts, and International partners' 
astronauts, to the Space Station.
    America and our partners have spent billions of dollars building 
and maintaining the Space Station. Now that it is complete, the Obama 
budget plan would ensure that the only access we have to it for at 
least the next several years, is by renting seats aboard Russian Soyuz 
vehicles.
    Sending hundreds of millions of dollars to the Russian government 
and hoping they will not raise the price further, is simply the wrong 
approach.
    Current NASA efforts for the next generation of space vehicles are 
already years away from completion; due in large part to underfunding 
that has set the Constellation program years behind schedule.
    The human spaceflight gap created by these delays threatens not 
only our Nation's access to the International Space Station and other 
areas of space, but also our national security and economic interests. 
Under the President's proposal, America's decades-long leadership in 
human spaceflight will end.
    The proposed budget offers a complete departure from the current 
approach approved twice by this committee, in our 2005 and 2008 NASA 
Authorization Acts. The proposal is essentially to place all of this 
country's human spaceflight capability in the hands of commercially-
developed crew launch systems, which are not yet defined and for which 
no real design requirements, development milestones, or even cost 
estimates are provided.
    The President's proposal to scrap the Constellation program and 
other NASA human spaceflight activities, I fear, will only intensify 
the space gap problem, not improve it as is claimed.
    And what is most ironic is that the request proposes extending the 
ISS from 2015 to 2020, something I applaud and have called for myself. 
But, how can we support the Space Station if we have no means to get 
there, or to ensure it has all the spare parts and replacement 
equipment necessary for it to fully function through the extension?
    I remind my colleagues that the planned retirement of the shuttle 
at the end of this year meant that 10 flights' worth of payloads 
destined for the Space Station, at OMB direction, and for purely 
budgetary reasons, were removed from shuttle flight planning and 
relegated to storage.
    When those 10 flights were removed in 2005, the decisions about 
which instruments and equipment to swap into the remaining flights were 
based on the internal assumption of the need to support the Space 
Station only through 2015--not through 2020 as this committee and even 
the budget proposal supports.
    The result of this is that we do not know how many, or which, of 
those grounded payload items might actually be needed in order to 
ensure the station can be supported and maintained safely and reliably 
until 2020. Not only that, we do not know which of these existing 
payloads are too large or too heavy to be carried to orbit by any 
existing vehicle other than the space shuttle.
    And finally, we do not know what additional new items, or the 
launch vehicle capacity that might be needed to extend the life of the 
Space Station to 2020.
    Mr. Chairman, I support commercial space flight. I continue to be a 
supporter of the current COTS (Commercial Orbital Transportation 
Systems) cargo activities being pursued with SpaceX and Orbital 
Sciences Corporation.
    Until those efforts are proven successful and certain thresholds of 
required capabilities are met, we have no business making a large 
investment of taxpayers' dollars in the active development of crew-
carrying commercial vehicles.
    As of today, there is simply no assurance that commercial space 
capabilities are sufficiently advanced in their development to reduce 
the space flight gap or meet the lofty goals the President has set for 
the industry.
    There is thus no apparent justification for the President's budget 
to propose complete and exclusive reliability on these proposed 
commercial crew capabilities.
    As an alternative approach to sending up a white flag for our 
Nation's premiere space science agency, I have introduced legislation, 
S. 3068, the Human Space Flight Capability Assurance and Enhancement 
Act. It provides for a rational, reasoned, and mission-driven approach 
to the question of determining the best time to terminate space shuttle 
operations, based on the number of flights found to be needed to ensure 
space station full and safe utilization in the next several years.
    This approach includes the possibility of the COTS cargo program 
helping to meet station requirements, once they are on-line and proven 
safe and effective. The legislation would also provide for accelerated 
replacement of government-operated human spaceflight systems to ensure 
we continue to have future access to space.
    Unless we make every effort to close the gap in U.S. human 
spaceflight, we will have no choice but to face the reality that we 
will be totally dependent on Russia for access to space. Should Russia, 
far from our strongest ally, ``renegotiate'' the terms of our 
cooperation after the shuttle is retired, the U.S. could possibly be 
blocked from space for years. This would leave Russia and China as the 
only nations in the world with the capability to launch humans into 
space.
    I will be working with my colleagues to ensure all of these issues 
are put on the table for discussion. I believe we can find a more 
measured and reasoned approach that ensures the best use of investments 
we have already made, and provide the Congress and the Administration 
with necessary information to inform our judgments on alternative 
launch vehicle developments.
    It is my hope that this hearing will contribute to our 
understanding of the commercial potential for meeting these challenges, 
but in a realistic and responsible manner.
    I look forward to the testimony of our witnesses.

    Senator Nelson. Thank you, Senator.
    General from your perspective, having flown several 
vehicles, what assurances do you think are necessary to 
guarantee that these commercial vehicles are safe to fly on?
    General Stafford. Mr. Chairman, the criteria that NASA has 
developed over the years in the NASA Safety and Mission 
Assurance has worked very well, and this has been learned over 
nearly five decades. And there has to be both insight and 
oversight and, you know, special care, before anything should 
ever be said it is safe, and it has to reach that three nines 
of reliability, sir.
    Senator Nelson. And to you, Colonel O'Connor, has NASA 
defined a process to validate what the commercial providers are 
saying in compliance with human-rating requirements?
    Mr. O'Connor. Mr. Chairman, we do have a process, that we 
just completed at the preliminary design review for 
Constellation, which includes all the same types of ingredients 
that you would have in a process to validate requirements and 
to verify that they've been met. There's one additional thing, 
though, and that is that we are open, as we have been with 
Constellation and other programs, to industry showing us that 
they can do something that we call out as a ``shall'' 
statement, or as a requirement, that meets or exceeds. We're 
open to tailoring, in other words. So, that's a piece that will 
be involved anytime we start a new program, including this one.
    We plan to put out an RFI, here in the next month or so, 
and to get some feedback from industry, including any ideas 
they have on how they might substitute some standard or some 
approach that they have that they believe is as good as what we 
suggest in our requirement. So, that tailoring iterative back-
and-forth process would go on with any new program, and it 
would with this, as well.
    Senator Nelson. And, Mr. Peterson, is it going to take $6 
billion to make this crew-ready over the next 5 years?
    Mr. Peterson. That is a great question. And I have no clue.
    [Laughter.]
    Mr. Peterson. I know that it is not a Gemini redo. I think 
the example of Gemini is interesting. It may be the only 
appropriate analogy that the Augustine Commission could come up 
with, but it is, by no means, one that I would say was 
appropriate to the level of confidence required for you to 
appropriate funds.
    Senator Nelson. How would you suggest for us to determine 
whether or not $6 billion is too much, too little, or just 
right, as we start the budgetary process?
    Mr. Peterson. Well, I don't think you can do so at this 
stage without numbers on the table--estimates, designs, 
procedures, the whole nine yards. Our history--and it bothers 
me to say this, but our history is not exactly one of 
unparalleled excellence in cost-estimating what we have never 
done before. We manage to miss it, usually, by an order of 
magnitude or so. So, to say $6 billion is a good number, 
without an understanding of the program details, processes, 
requirements, funding commitments: all that is beyond my 
ability.
    Senator Nelson. But, you felt fairly confident in getting 
cargo up on commercial vehicles.
    Mr. Peterson. I think cargo is well within our capability; 
we do it constantly. If you think of delivering spacecraft to 
orbit, we do that. We have the more--most difficult areas, 
which are the rendezvous and docking with the Space Station. 
There are systems that are now certified for doing that. I 
believe they would be at least GFE'd by NASA to the company. It 
is, I think, a relatively straightforward--not easy, but 
straightforward job. I think the competitive environment for 
cargo is such that the economies of scale, at least on the 
launch end, will certainly prevail. I think it's a good 
business case that can be made, and I would proceed with that, 
without any hesitation.
    Senator Nelson. Mr. Gass, what would happen if the Congress 
decided, since the Congress controls the purse strings, that we 
wanted to take the $6 billion projected by the President over 
the next 5 years, and use that, not for human certification of 
the commercial vehicles, but, instead, to accelerate the R&D 
for a heavy-lift vehicle for the Mars program?
    Mr. Gass. Well, with any major program, just as Mr. 
Peterson talked about, you know, the rate and thoroughness of 
the program is a function of how much we can afford on any 
given day. So, if we apply more resources to the Mars activity, 
I think we'll achieve that goal sooner.
    The key on all of this is really keeping that balance 
throughout the entire industrial base. That infusion, the 
importance of this whole debate, is making sure that we have 
the constancy of purpose to keep on exploring and having that 
constancy of funding. How we apply it is a system-design 
activity. If we--whether or not we are going to low-Earth orbit 
as our first priority, or going to Mars as our first priority, 
that foundational step of propulsion investment, some of the 
other technologies we need to explore Mars, has to be done 
someday. And when we apply those funds, we'll increase our rate 
of achievement.
    Senator Nelson. Colonel O'Connor, is the Astronaut Office 
involved in the certification/validation process?
    Mr. O'Connor. Absolutely. Yes, sir. We have what we call a 
``four-legged stool,'' and we apply that four-legged stool as a 
governance model whenever we have what we call ``residual 
risk.'' Residual safety risk, when you have human beings 
involved, means that we need volunteers. We don't force anybody 
at NASA to take residual safety risk.
    The other three legs of the stool, of course, are the 
program manager, who gets the last opportunity to accept that 
risk, but only if the other three legs of the stool, which 
includes the safety officer, the technical authority, which is 
the owner of the requirement we're talking about--the 
particular issue always has an engineering or technical-
authority owner--and then, of course, the volunteer. So, if the 
technical authority is OK, the safety guy is OK, the crew is 
happy to volunteer to take on that risk, then, and only then, 
is the program manager allowed to accept the risk.
    Why do I bring that up? Because it happens a lot in design 
and development of these things and--as well as in operations. 
When there's a waiver, a deviation, a new issue comes up, which 
is a little over the risk that your volunteered to take for, 
just by signing up to do this job--in other words, the inherent 
risk of spaceflight--we quite often do have residual-risk 
issues that come up. And the crew office is very much a part of 
that, because they are the people at risk.
    Senator Nelson. How have, Colonel, the Russians minimized 
their risk over the years? And then I'm going to ask General 
Stafford.
    Mr. O'Connor. We've been working with the Russians for 
quite a while. General Stafford will tell you how it all 
started. But, in 1995 we decided that it would be a good idea 
to fly one of our astronauts on a Soyuz. We look at this as an 
analogy to some of what we're doing today, because we wonder, 
How did we get confident enough to say it's OK for our 
crewmember to fly on the Soyuz? Only recently had we really 
understood what was going on in their space program. You know, 
it had been kind of secret, there, for a while. We didn't know 
all the details of their design, or even of their failure 
history. But, in the early 1990s, it opened up, and we talked a 
lot with the Russians, and we sent engineers over there for 
about 3 years from the safety mission assurance and engineering 
organizations, not to lay on requirements--this is a case where 
we developed our confidence to put crewmember on some other 
vehicle that we did not design and we do not operate, and 
requirements, or what we're calling ``the human-rating 
requirements,'' were not a part of that. We didn't lay any 
requirements on that system. I know that General Stafford, when 
they did the rendezvous in Apollo-Soyuz, NASA did have a couple 
of requirements that they put on the Soyuz to make it an 
appropriate interface when they docked. But, this was a case 
where we were going to either going to accept the Soyuz to fly 
Norm Thaggart, or not. And it took us a while, but we got to 
the confidence level we needed.
    One of the key ingredients, when we didn't have 
requirements verification, was this business of equivalence. 
They did things differently than we did. We might have a 
requirement for failure tolerance. They didn't have it written 
the same way, but we looked at it, and we decided that, you 
know, their--they have an equivalent approach, here, even 
though it's not exactly like ours. And it took us a while, but 
we finally got comfortable with equivalence.
    And then, the last ingredient, which was probably the most 
important for that adventure, was their demonstrated 
reliability. They had, I think, 67 flights in a row since their 
last casualty. And that's a pretty good demonstrated 
reliability. So, all those things added up. And in every case, 
we will look at the combination of insight, understanding, 
trust in another government organization, like we've done with 
HTV, ATV, Soyuz, and the demonstrated the reliability. And add 
those up to the point where we get confident enough to fly.
    Senator Nelson. General Stafford, did you want to add to 
that? How did we achieve the confidence in the Russian system?
    General Stafford. Yes, Mr. Chairman. You know, I started, 
back when it was a Soviet system, at the height of the cold 
war, and everything was Bolshoi--a secret. It was a big secret. 
But yet, in that effort, we went straight across the table with 
them, and they opened up to us, and we made requirements. They 
changed at least two valves on the Soyuz, some electrical 
issues on the Soyuz. And they opened up some of their--how they 
approached safety. As Colonel O'Connor said, it's somewhat not 
the same way we do, but the end product is nearly the same. And 
so, we were satisfied with that, and flew that.
    And then, as you remember, sir, because of my former 
experience with the Soviets, now the Russians, I chaired the 
Shuttle-MIR Advisory Task Force, and had, kind of, the 
oversight of that, looking at safety issues. And from there, 
again, we looked all into the details of that. And then, now, 
the International Space Station, which I share the advisory 
panel on. So, the Russians do a very good job, and it's 
slightly different than ours, but yet, they end up at the same 
place.
    Senator Nelson. All right. Let me ask you another question 
with regard to buying a seat on the Russian vehicle. How can 
we, the taxpayers, be guaranteed that the seats are going to be 
purchased at a fair market price?
    General Stafford. Well, you know, the accountability in 
Russia is somewhat different. And it's good to see my old 
friend, Mr. Peterson, and he's an expert on financial affairs. 
But, they didn't quite understand the profit issue back in the 
Soviet Union; I think they certainly do now.
    And it's--they have a demonstrated effort, and now it goes 
for approximately, I think, $50 million a seat, include all the 
training. And this requirement that they have to support the 
Station is up in the year 2012. It will probably be 
renegotiated. And unfortunately, the Russian rubble is 
appreciating while the American dollar is falling, and I do not 
know what it will end up as. But, how much it is subsidized, we 
can't tell. But, I don't know--it would be very difficult to 
match their price at this time, sir.
    Senator Nelson. Mr. Peterson, let me ask you, with regard 
to American vehicles, how can we make sure the taxpayer is 
getting a decent price?
    Mr. Peterson. We're not going to be able, in my mind, to 
compete against the Soyuz. It is--our fair price is going to 
have to be a amalgam of our national interest in the venture 
and however we want to parse the value of being able to create 
a commercially viable vehicle. If it is price alone, I believe 
the Russians can undercut us with relative ease. I doubt that 
we could launch an equivalent vehicle for $150 million. I'd be 
surprised if we could do it for less than $400 million.
    Senator Nelson. So, sounds like you're saying that, other 
than the national interest of having an American vehicle to fly 
to and from the Space Station, that, just from a price 
standpoint, you're suggesting we might better use that $6 
billion--instead of man-rating them, to make a faster and 
better heavy-lift vehicle.
    Mr. Peterson. Well, I believe the issue that puzzles me is 
why the administration did not accept the recommendation of the 
Augustine Committee to continue to work on the Orion spacecraft 
and have that as a warm backup. The envisioned simple 
spacecraft that the Augustine Committee talked about, I've 
referred to in my written testimony, probably caustically, as a 
Soyuz ``wannabe.'' That's a little bit acid, I agree. On the 
other hand, Orion leapfrogged the Soyuz, and we were going to 
prove Orion's reliability by taking it to the Space Station, 
getting the maturity that comes from repeated trips, and then, 
of course, being able to venture on to beyond low-Earth orbit.
    I think I'll stop there, probably having shot myself in the 
foot more times than I want to count. But, thank you for 
offering me the opportunity.
    Senator Nelson. All right.
    [Laughter.]
    Senator Nelson. You do that because you're a former 
Comptroller.
    Let me turn to Ms. Shotwell and Mr. Culbertson. Please 
speak for your companies on that question.
    Ms. Shotwell. I appreciate this opportunity.
    I'm here to say that we can guarantee crew flights to the 
ISS for less than $50 million a seat.
    Senator Nelson. By what year?
    Ms. Shotwell. Three years from the time we initiate. And 
the reason why it sounds so quick is because the Dragon vehicle 
was designed, really from the outset to accommodate crew--with 
a number of key developments still to do, but developments that 
we're comfortable with.
    Senator Nelson. Do you have to have all the $6 billion to 
develop it?
    Ms. Shotwell. No, sir.
    Senator Nelson. How much?
    Ms. Shotwell. I'd prefer to answer that question slightly 
differently, if you don't mind. If you were to spend all $6 
billion on a commercial crew, and everybody were to make our 
bid--have the same bid as ours--you would have somewhere 
between 5 and 10.
    Senator Nelson. Between 5 and 10 what?
    Ms. Shotwell. Five and 10 suppliers.
    Senator Nelson. Mr. Culbertson?
    Mr. Culbertson. Mr. Chairman, I don't think I can be quite 
that optimistic as Ms. Shotwell. But, we've looked at the 
previous systems that have been flown, and we've looked at how 
we develop spacecraft, and what it takes to ensure that they're 
going to be--not only accomplish their missions, but be safe 
and reliable.
    One of the benchmarks we looked at was the development of 
the Shuttle itself. When you look at it on a per-pound basis, 
the Shuttle was about $150,000 per pound for development. If 
you were to take that number--and it's fairly similar for other 
vehicles--but, if you were to take that number for, say, a 
20,000-pound vehicle that you needed to carry three to five 
crew to the Space Station, that works out to about--if it's a 
20,000-pound vehicle, it works out to about $3 billion for 
development.
    Given today's productivity and efficiencies that we have, 
we think the number could be significantly less than that. But, 
at least that gives you an upper bound, on a conservative 
approach, of what one company might need to do that level of 
development.
    And in terms of the cost of each individual mission, I 
think Mr. Peterson's right, it's probably around $300- or $400 
million if you're going to have all of the ancillary 
programmatic capabilities dealt with by the company that's 
providing that. A lot of it depends on how much NASA provides 
and how much the company provides and how much you're going to 
invest in mission control, launch operations, recovery 
operations, training, all that goes with flying humans in 
space. So, the number is pretty wide, in that regard.
    And as far as the government investment required--for a 
program of this size to have that type of upfront investment 
and the low number of flights that are currently envisioned, 
you've either got to work aggressively to grow the market and 
ensure that you do have sufficient demand for the seats or 
you're going to have to have fairly significant government 
investment upfront in order to cover the development costs. And 
those are things that we're going to have to work on very hard 
in the future to make sure that we get into the right box.
    Senator Nelson. Let me shift from crew to cargo and ask 
you, for commercial cargo, what lessons can U.S. companies 
learn from the development efforts of the ATV and the HTV?
    Mr. Culbertson. Who's that for?
    Senator Nelson. Anybody.
    Mr. Culbertson. OK. I think we should see that as a 
challenge. There are other countries that are developing cargo 
capability ahead of us. The Russians did it a long time ago, 
with Progrez. ATV and HTV, though expensive and somewhat behind 
their original schedule, have demonstrated their capability to 
deliver cargo to the crew--to the Space Station semi-
autonomously. I do believe it's well within the capability of 
U.S. industry to do that, as we and SpaceX are demonstrating, 
and will demonstrate concretely in the coming year.
    And I think that's a capability that we should continue to 
build on, not only just to provide cargo, but to provide other 
support for the Station and other markets that come along. I 
think that as more and more vehicles are developed that will 
use space as their place of business, having the commercial 
world ready to support that is an important aspect of what this 
country ought to be able to do, whether it's servicing other 
satellites, repairing them, recovering them, working on orbital 
debris, providing access to other platforms for scientific 
experiments; I think that's all within the realm of our 
commercial industry.
    Senator Nelson. Well, General Stafford, you pointed out, in 
your written testimony, that the Europeans and the Japanese 
were years behind in their schedule in delivering payloads to 
the Station. Is that going to happen with the rest of these 
folks?
    General Stafford. Well, Mr. Chairman, I know, from the 
position as Chairman of the Advisory Task Force, kind of the 
oversight committee, that we watched that, and that 2 years-
plus, and the Europeans put a lot of resources in--1.3 billion, 
at least--Euros--at least advertised. The Japanese, we don't 
know. And they put a lot of their top engineers, resources on 
it, and they were over a year late. So, you know, as former 
Deputy Chief of Staff of the Air Force for Research, 
Development, and Acquisition, I've seen a lot of great 
forecasts come in from commercial companies--what we call the 
``hot biscuit'' items--and they're always usually under-costed 
and under-schedule what really happens.
    Senator Nelson. We have had two votes called on the floor. 
Of necessity, I'm going to recess the Committee. I'm down to 
the remaining 5 minutes to vote--to cast my vote on the first 
vote, and I will cast my vote on the next vote immediately at 
the beginning, and race back here.
    So, the Committee will stand in recess.
    [Recess.]
    Senator Nelson. OK. The Committee will resume.
    Dr. Nield, what do you anticipate to be the greatest 
challenge facing the FAA in developing appropriate regulations 
for ensuring public safety in commercial spaceflight 
operations?
    Dr. Nield. I think we have an excellent foundation, based 
on our assessment of what the future's going to bring. And 
Congress has given us some excellent guidance on how we should 
handle crew and how we should handle public safety, and so, 
we've done the best we can to set up that regulatory 
environment.
    But, until we really see these vehicles fly, we're not 
going to have the demonstrated track record, we're not going to 
understand how well that's going to work. So, I think this 
transition, as we see both the suborbital space tourism-type 
operations in the next few years, and then, eventually, some of 
the orbital flights, first with the cargo, then that'll really 
enlighten the community, in terms of what additional, or 
different, regulations we might need to put into place, and 
it'll give people a better calibration, in terms of the overall 
difficulty of challenging--of satisfying some of these 
challenges that we face.
    Senator Nelson. Well, should the FAA be involved at all, 
with regard to these rockets going to and from the Space 
Station?
    Dr. Nield. I believe we have an excellent relationship with 
NASA, and we need to continue to work together to figure out 
the best approach to take. But, I would just point at our track 
record to date in working through both the COTS and the CRS 
programs. I think we've worked together well. We've taken 
advantage of the FAA licensing regime and all the benefits that 
it can bring, in terms of ensuring public safety and the 
insurance and indemnification and the cross-waivers. All those 
things are available as part of the overall regulatory process. 
And NASA brings to the table its unique experience, in terms of 
human spaceflight and spaceflight operations, and we think, 
together, that can end up being a win-win for the government 
and for the industry.
    Senator Nelson. In cargo operations, what you've done would 
apply. But, are there any new regulatory authorities that you 
believe the FAA will require, with regard to crew development 
activities, in going up to the Space Station?
    Dr. Nield. I would say that, given the guidance that 
Congress has provided so far, which is that--again, under the 
Commercial Space Launch Amendments Act of 2004, Congress 
clearly stated, ``Space transportation is inherently risky,'' 
and we can't forget that. We need to protect the public on the 
ground. Now, how can we minimize the risks as much as possible 
during these risky and experimental flights? I think we have a 
regulatory environment that works, right now, recognizing that 
NASA may well have specific mission requirements that it wishes 
to impose--for example, to ensure the safety of the 
International Space Station, or human-rating specific 
requirements--and they would be certainly free to do that 
within the contracts that they agree to with industry. So, I 
think there is a potential way ahead that would take advantage 
of the strengths of each of the organizations.
    Senator Nelson. Well, since the FAA is involved in the 
safety of airplanes, does it have any business in getting into 
the question of human safety in spacecraft?
    Dr. Nield. Based on direction from Congress, yes, we 
already have that responsibility, and we look forward to 
working with the Congress and with the other stakeholders, 
including NASA, in improving our environment, going forward.
    Senator Nelson. Well, I passed the first Commercial Space 
Act, back in the 1980s, and I never intended for the FAA to be 
getting into this.
    Now, I know that NASA is not a regulatory agency, and 
therefore, needs to work with the FAA to establish regulations. 
But, I don't want to get this into a situation where we've just 
got extra layers of bureaucracy to go through just to get a 
crew up to the International Space Station.
    General you're smiling.
    General Stafford. Well, Mr. Chairman, when you talked about 
government crews to that--I think, in that--really, the only 
one that really has the expertise to write that is going to be 
NASA and what Colonel O'Connor has with his group, as far as 
government crews. If you talk about civilian crews going to 
some other thing that is nongovernment, that is--could be a 
completely different issue. But, I agree with you, sir. You 
don't want layers of bureaucracy. But, for government crews, I 
think it should be NASA, period.
    Senator Nelson. Mr. Gass, could an EELV be integrated with 
a smaller crew exploration vehicle?
    Mr. Gass. Yes.
    Senator Nelson. Could you, for example, integrate it with 
one that had three astronauts instead of six?
    Mr. Gass. Yes. We've looked at many configurations. You 
know, you--as we've talked before, United Launch Alliance is a 
merchant supplier, so we're working with many companies. But, 
we have done work with the Orion Program and some other 
different configurations of various sizes. Inside the EELV 
fleet, we have all sizes of rockets, as well. But, at the high 
end, we talk about an Orion or Orion Lite vehicle, and have 
that capability, have the launch infrastructure ready to go, so 
we can support that kind of crew vehicle, which is kind of--
it's for--work for LEO, but it also goes LEO and beyond; it has 
that basic capability for future exploration.
    The other side is true LEO vehicles, the vehicles that have 
been optimized for low-Earth orbit, and they would use the 
lower end of our launch family. So, at United Launch Alliance, 
we're prepared to support the wide range of options that are 
being considered. And we're doing work with all of those 
systems right now, and using everything from our low-end Atlas 
rocket, a basic singlestick rocket, to the big Delta IV heavy--
are options for all of those configurations.
    Senator Nelson. If you were told, ``Go,'' how long would it 
take you to do a CEV?
    Mr. Gass. I think--working with the CEV team, I think we 
could have an unmanned test flight inside 3 years. And the 
reason I say that with some credibility, we're working on some 
of the most complex national security spacecraft that come with 
a whole lot of complexity of integrating spacecraft to launch 
vehicle. Working that depth of integration, assuming that the 
CEV--the Orion-type program is moving along and funded properly 
and it's making its progress, I think we could have that first 
flight in 3 years, using existing launch infrastructure. Full 
human flights would probably be in the 4-year timeframe, and 
we're looking at different launch pad options.
    Senator Nelson. You could do unmanned in 3 years and then 
be ready to fly humans to the Space Station in 4 years.
    Mr. Gass. Correct.
    Senator Nelson. OK. Now, Ms. Shotwell says that she can do 
it in 3 years.
    Mr. Gass. Name that tune.
    Senator Nelson. What's that?
    Mr. Gass. If we can play ``Name that tune,'' but it's, 
again, that--you know, working with credibility of what are the 
interactions between the different contractors, NASA agencies--
there are clearly options and--you know, we look at the 
spectrum of an all-NASA system to an all-commercial system; 
there's in-between. And I would look at--what I just referenced 
is kind of an in-between kind of solution; strong government 
involvement, a vehicle that is more extensible than just low-
Earth orbit that gets to that added complexity. You go on the 
simpler side, to true commercial to LEO, it could probably be 
done more expeditiously.
    Senator Nelson. And, Mr. Culbertson, you said that it would 
take a little longer than 3 years, if I recall what you said 
earlier.
    Mr. Culbertson. Three to four years is what I said, sir, 
because, as was pointed out earlier, development programs 
typically take longer than originally estimated, and I'd like 
to set the expectations appropriately, right now, because we 
really don't know what the requirements we're going to be 
working to are, exactly. There's a lot of uncertainty, and 
exactly what--how that will impact our system, how much 
interaction we'll have to have with NASA and the FAA, and what 
will be required of the company to certify our system. And so, 
there's a minimum number, and there's a maximum number. That 
maximum number could go out as far as 5, under bad 
circumstances. But, I think 3 to 4 is a reasonable estimate 
that most of industry could probably subscribe to.
    Senator Nelson. OK. If it were 5, that was the original 
schedule for the Ares I; it was going to be in 2016. So, any 
way we look at it, we're looking--5, 6 years relying on Russian 
spacecraft to get crews to the Space Station.
    Mr. Culbertson. At least until 2015, yes, sir.
    Senator Nelson. At least until 2015.
    Mr. Culbertson. Depending on when you wave the green flag. 
You know----
    Senator Nelson. That's correct.
    Mr. Culbertson.--that all depends on the budget.
    Senator Nelson. Let me ask Ms. Shotwell and Mr. 
Culbertson--we're going to try to make some decisions on our 
authorization and work with the appropriators on which way 
we're going. What assurances can we tell our folks that your 
timetables for supporting the Station won't slip?
    Ms. Shotwell. Given where we are in the stage of 
development of both Falcon 9 and Dragon, we're very confident 
with the 3-year timetable that we've laid out. I don't know how 
to assure that, other than we are committed to doing it. We 
have the Falcon 9 vehicle at Launch Complex 40 at Cape 
Canaveral right now. It should be ready to fly within the next 
month or so. The Dragon spacecraft, the first Dragon spacecraft 
for NASA, will fly in July. And keep in mind that, again, 
Falcon 9 has been designed to accommodate a crew-rating 
certification, and the same with Dragon. So, we're not starting 
from scratch. You'd really have to look at the development 
timelines that we've had to date for Falcon 9 and Dragon, and 
add to that the 3 years that we're talking about now, moving 
forward. And then the timelines don't look ridiculous, by any 
stretch.
    Mr. Culbertson. The timeline we're working on right now for 
COTS has slipped a few weeks and months, over the time that 
we've had the contract. But, not an unreasonable amount, given 
the complexity of the job and the late award of the contract to 
Orbital for the COTS demo mission. So, we've stayed pretty 
close to our original milestones, with a little bit of slip.
    I'm not going to give you a timeline for commercial crew, 
at this point, because we don't honestly have one, because we 
don't know exactly what the requirements are going to be that 
we're going to have to meet. We're working on those things. It 
would be premature for me to make those kind of statements, at 
this point, until we see an RFP and we see the standards that 
Brian was talking about, and understand what that would require 
us to do. But, once we set a timeline, we will try to set it as 
realistically as possible.
    Senator Nelson. I'd like to ask the three of you--that have 
the commercial carriers--I don't think that this scenario will 
occur, but you've got to have a business plan for it, if it 
did, and that is, what would happen if there were some 
emergency on board the ISS, and they had to vacate the ISS so 
that cargo and crew services by commercial providers was not 
necessary? What happens to your companies?
    Mr. Gass. I'll----
    Senator Nelson. Mr. Gass?
    Mr. Gass. Thank you, Senator. First, I'll kind of reiterate 
what Mr. Peterson said. You know, when we deal with these kind 
of high-risk investment issues, there's an underlying market 
risk, there's technical risk, and there's operational risk. 
What you just described is really the market risk that--first 
off, Is the market of the U.S. Government buying services very 
secure? And then, What happens if something catastrophic 
happens for it to end suddenly? That basically precludes why 
any rational investor would put in private capital into this 
market. There's got to be some other reason why we're doing it. 
So, unless the government program is structured in such a way 
that investment cost is covered, with either some sort of 
termination liability, it's going to be very difficult to 
attract true, rational investment capital.
    Mr. Culbertson. Mr. Gass is correct, in--and in general, 
you would have to make sure that you have some kind of 
protection, if you were--particularly, investing billions, 
rather than what's currently being invested.
    As far as our current cargo contract, if the Space Station 
were to cease to operate, then, yes, that would be a business 
impact to the company. Orbital is structured in such a way, and 
we're broad enough in our business base, that it wouldn't have 
a major impact on the company, but it would certainly be 
something that would change our plans over the next couple of 
years.
    We're working, on a mission-by-mission basis, on a fixed-
price basis; and what we have to order ahead of time, we order 
ahead of time; what we don't, we wait until we need it. And so, 
we just have to balance all of those impacts.
    I do think that if something like that were to happen, we 
would certainly offer to work with the U.S. Government to come 
up with a solution to re-man the station, resupply it, and 
figure out if there is a way for the commercial world to help 
restore a laboratory like that. I think it's that important to 
the country that we ought to all work together to come up with 
solutions. It'll--it might be expensive, it might be difficult, 
depending on the problem, but I think it's something we ought 
to all have as a contingency plan.
    Ms. Shotwell. The market for SpaceX Launch Services is 
quite broad, because we compete internationally, as well. So, 
there's no question that if we were to lose the cargo resupply 
contract that we have now, it would be a hit to our business 
case, but it would be, by no means, devastating. As I mentioned 
earlier in my testimony, we have 30--I believe we have 32 
flights on our manifest right now, 24 of which are Falcon 9, 
and we're about ready to sign another 10 or so. So, it would be 
a hit, but, again, we don't go from something to zero. We still 
can provide Falcon 9 launch services for satellite providers, 
and we also have other customers outside the U.S. Government 
that's interested in Dragon.
    Senator Nelson. Of your 30 flights, how many are COTS 
flights for cargo?
    Ms. Shotwell. Three are COTS flights, 12 are CRS flights, 
and the remaining are satellite delivery flights. Actually, 
there was one commercial Dragon on the flight, as well--on the 
manifest, as well.
    Senator Nelson. There's one what?
    Ms. Shotwell. Commercial Dragon.
    Senator Nelson. Ms. Shotwell, what assurances--well, we 
covered that.
    Do you all have anything else? Do you have any more?
    OK. I think we have gone through all of the questions that 
we want, at this point. Are there any concluding comments that 
any of you all would like to make?
    General? I knew you'd have something to say.
    General Stafford. Well, from my experience, going back to 
Gemini, sir, that everything has taken, always, longer than 
what was forecast, on every program; and in most of them, it's 
cost more money that was forecast. So--and I don't know--you 
could check with Mr. Peterson, I don't know if he's experienced 
anything any different, but that's been my experience for 40 
years, sir.
    Mr. Peterson. If we are serious about the commercial cargo 
and commercial crew, as a matter of national policy, I would 
recommend to the Committee that you put, with the help of the 
appropriators, sufficient funds on the table to allow a program 
to proceed without hindrance from the funding process and the 
potential shortfalls in funding that stop progress and 
prevent--cause rework, and all those things that delay 
activities.
    I also believe that you're going to want to look at, if it 
is truly going to be commercial, some form of protection for 
the investors. If you're going to get commercial money, you're 
going to have to have some basis to know that they're going to 
do so with at least, perhaps, recovery of their invested 
capital--they'll probably lose their opportunity cost of 
capital. I don't know if I'd pay them interest. But, I think it 
is wise to assume that this is going to be a difficult process, 
to raise capital, and we should take some steps to mitigate 
that risk.
    Mr. Gass. Well, just to, maybe, build on the same thought. 
But, first, I think we shouldn't be--beat ourselves too much. 
There's been great successes, in our space industry, where we 
have been able to deliver on schedule, within cost, and 
continue to improve, over the generations. This is a risky 
business. When we talk commercial and have the U.S. Government 
being the main buyer, that is a little bit of an oxymoron of 
mixing different market areas. So, we need to be careful of 
what we're really trying to buy. I think the U.S. Government 
being the smart buyer, moving from a full indigenous, internal 
capability to start using commercial enterprise to help support 
that mission, is something that I think is very doable, but it 
needs to be in a measured approach, and we stand ready to 
support.
    Senator Nelson. You all have been a very illuminating 
panel, and we thank you very much. We're plowing new ground 
here in a time of exceptional opportunity. So, I want to thank 
you for adding to the knowledge base today. You all are very 
kind to be here.
    Again, I apologize for the interruptions of the votes, but 
that's the environment in which we live, here.
    Thank you all for your testimony.
    The meeting is adjourned.
    [Whereupon, at 5:15 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Last month, the Obama Administration proposed a new path forward 
for NASA that refocuses the agency's overall direction. That new 
direction includes significant funds--$812 million in FY 2011 and $6 
billion over 5 years--to stimulate the development of the commercial 
space market.
    Congress is examining the budget closely, and as this Committee 
begins to move on NASA's reauthorization, this hearing will start to 
explore both the promise and the risk of relying on commercial 
companies for space access.
    Investments in technology innovation always carry tremendous 
potential. We know space exploration has produced many technologies of 
great value to people's everyday lives.
    Yet, exploration is still expensive and risky. It is clear that 
using the commercial market to bring down costs and allow NASA to focus 
on its greater mission could be an effective strategy.
    Still, NASA and the administration have not yet provided key 
details about how this investment will be executed. To support a 
domestic commercial market, NASA will need to transition to a new way 
of doing business. New requirements and regulations will need to be 
developed in coordination with the FAA and implemented to ensure crew 
safety.
    The space program is still at a critical juncture. With any new 
proposal or substantial investment we can never forget to ask that 
simple critically important question: does it work for our country--
will it help our people?
    I know today's witnesses can begin to help us answer that vital 
question. Thank you very much for your perspective and expertise.
                                 ______
                                 
  Prepared Statement of Hon. David Vitter, U.S. Senator from Louisiana
    I want to thank the Chairman for scheduling this important hearing. 
NASA is at a critical stage in its history and I believe that, because 
of the Administration's proposed radical new direction for NASA, it is 
crucially important that we ascertain just what are the true current 
and near-future capabilities of commercial space companies to provide 
safe, reliable transport of U.S. astronauts to low earth orbit and the 
International Space Station. Given that the president's proposal would 
invest billions of taxpayer dollars in this endeavor and leave the 
United States without a government-owned launch and crew vehicle on 
which to rely, it is imperative that we get an accurate accounting of 
where these commercial companies are in their technological 
development, of just what the cost will be, what the timetable will be 
for delivery of these systems, and what the impact will be on our 
current NASA workforce.
    I would like to welcome our panel of witnesses. I look forward to 
hearing your testimony and to you sharing your valuable experience and 
expertise on these subjects, and I thank all of you for taking the time 
to appear here before this committee today.
    As everyone in this room should know by now, I have serious 
concerns and grave misgivings about the proposal to rely strictly on 
commercial providers for U.S. manned space flight. Indeed I have yet to 
see any convincing evidence that this proposal is viable, or that it 
will lead to anything other than the ruin of our proud space program, 
the loss of our role as the world's leader in space exploration, and 
the loss of tens of thousands of jobs at NASA facilities around the 
country.
    Particularly in respect to the inevitable job loss at NASA 
facilities should we follow this path, I have yet to hear anything 
other than the vaguest assurances that ``something'' will be found for 
these highly-skilled and invaluable workers to do or that they'll find 
new work in the commercial space industry ``somewhere,'' or that 
commercial providers ``may'' be looking to move some of their work into 
NASA facilities. Neither I nor the thousands of NASA workers and their 
families now facing the prospect of losing their jobs because of this 
proposal can find much optimism or solace in such vagaries. This issue 
weighs on me heavily, and I am keenly interested in what our witnesses 
here have to say about this matter.
    I am also deeply concerned that this proposal will only widen the 
``gap'' in our manned space flight capability, leaving us to rely 
solely on Russia for space flight services for an indefinite period of 
time. This possibility is completely unacceptable to me, and, I am 
sure, to most Americans. We have worked hard and sacrificed much to 
achieve our role as the world's leader in space exploration, and I am 
deeply concerned that if we go this direction now, when so much about 
commercial spaceflight is uncertain and unproven, that we will 
inevitably cede that leadership role to Russia, China, and other 
nations with ambitions in space.
    All of that is not to say, however, that I am utterly opposed to 
the idea of commercial space flight. I have no doubt that commercially-
provided space flight to low earth orbit--both cargo and crew--is the 
future. However, I do not believe that future is now, and have yet to 
see any evidence to the contrary. To date, no commercial company has 
yet to even prove that it can reliably deliver cargo to the ISS. Given 
that, I firmly believe that it is both premature and irresponsible to 
entrust our entire manned space flight program to commercial providers 
at this time--subsidizing them with billions of taxpayer dollars in the 
process--and therefore imperative that we continue the development and 
then operation of a government-owned crew launch system built by our 
experienced and proven NASA work force. When commercial providers have 
proven themselves in flight and demonstrated that a viable and robust 
market exists for commercial spaceflight, then and only then do I 
believe it is logical to completely turn over manned space flight to 
low earth orbit to them.
    That being said, I look forward to hearing all of your testimonies 
here today, and I hope that you will provide this committee with an 
accurate, reliable picture of where commercial spaceflight is in its 
development process, with reliable timetables for delivery and 
operation of both cargo and crew vehicles, with accurate estimates of 
cost, and with any ideas or considerations you may have for providing 
employment opportunities for our NASA workforce and the utilization of 
NASA facilities.
    Thank you all again in advance for your testimony.

                                  <all>

</pre></body></html>
